APPENDIX A

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
FIRST DISTRICT OFFICE

CAROLYN TAFT GROSBOLL
Clerk of the Court

September 28, 2020

(217) 782-2035
TDD: (217) 524-8132

160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312) 793-1332
TDD: (312) 793-6185

Steven P. Varel
Office of the State Appellate Defender
770 E. Etna Road
Ottawa, IL 61350-1014
In re:

People v. Radford
123975

Dear Steven P. Varel:
The Supreme Court today entered the following order in the above-entitled cause:
Petition for rehearing denied.
The mandate of this Court will issue to the Appellate Court and/or Circuit Court or other
agency on 11/02/2020.

Very truly yours,

Clerk of the Supreme Court
cc:

Appellate Court, Third District
Attorney General of Illinois - Criminal Division
Gopi Kashyap
State's Attorney Kankakee County
State's Attorney's Appellate Prosecutor, Third District

APPENDIX B

2020 IL 123975

IN THE
SUPREME COURT
OF
THE STATE OF ILLINOIS

(Docket No. 123975)
THE PEOPLE OF THE STATE OF ILLINOIS, Appellee, v.
TAVARIUS D. RADFORD, Appellant.

Opinion filed June 18, 2020.

JUSTICE THEIS delivered the judgment of the court, with opinion.
Chief Justice Anne M. Burke and Justices Kilbride, Garman, and Karmeier
concurred in the judgment and opinion.
Justice Neville dissented, with opinion.
Justice Michael J. Burke took no part in the decision.

OPINION
¶1

Following the death of his 26-month-old daughter, M.R., from traumatic brain
injuries, defendant Tavarius D. Radford was found guilty of endangering the life or

health of a child (720 ILCS 5/12-21.6(a) (West 2010)) after a jury trial in the circuit
court of Kankakee County. On appeal, defendant’s conviction and sentence were
affirmed. 2018 IL App (3d) 140404. The appellate court found, inter alia, that the
trial court did not violate his right to a public trial by partially closing the courtroom
during jury selection and that no error occurred when the jury was instructed. Id.
¶¶ 47, 60. For the reasons that follow, we affirm the judgment of the appellate court.

¶2

BACKGROUND

¶3

On December 5, 2011, defendant was charged by indictment with first degree
murder (720 ILCS 5/9-1(a)(2) (West 2010)) and endangering the life or health of a
child (id. § 12-21.6(a)).

¶4

Two years later, this case proceeded to a jury trial. On November 18 and 19,
2013, jury selection occurred. Prior to voir dire, the trial court recognized that jury
selection is a public proceeding but that the courtroom could not accommodate all
the potential jurors and spectators present for the proceeding. 1 The trial court
explained:
“What I’m go[ing to] do during jury selection, it’s go[ing to] be difficult—
it’s a public proceeding, jury selection, but here’s the problem. There’s only so
many seats ***. *** [The] courtroom appears to be divided *** between
perhaps people here in support of the defendant and individuals here more or
less *** not in support of the defendant, and I will allow two individuals from
the victim’s family and two individuals from the defendant’s family to be
present during jury selection and there may not even be room for you, but you
cannot talk to any particular *** jurors. You’ll have to sit at the back of the
courtroom, not as an insult to you, but in recognition of the fact that we are
about to go into jury selection and the emphasis is going to be on the jurors.
Okay?
Also, if you are behind the jurors *** there’s less risk that you might
inadvertently *** you wouldn’t have like some sort of facial expression to
1

The venire consisted of approximately 100 members. A larger pool of potential jurors was
considered necessary because the trial was anticipated to last about two weeks, would start before
the Thanksgiving holiday, and there were approximately 50 potential witnesses that could be called.

-2-

something that’s said that could potentially influence the jurors. We don’t want
that to happen. Okay?
*** I want to commend everybody in the courtroom *** for your patience
*** and your demeanor, and I’m go[ing to] ask that throughout the trial which
could involve, obviously, considering the nature of the case emotions running
high. I’m go[ing to] appreciate it if you remember that it’s inappropriate to
display those emotions because that can have an [e]ffect on the jury and it can
*** affect *** whether or not the trial is ultimately able to even take place or
whether or not a mistrial would have to occur, and nobody wants to see that
happen. Okay?
So at this time we’re go[ing to] bring the jurors up. I am going to clear the
courtroom with the exception of the two people from each side ***.”
¶5

Neither party objected to the trial court’s approach. Both parties complied with
the trial court’s request and chose the two family members who were allowed to
remain in the courtroom while the jury was selected.

¶6

On the second day of jury selection, before bringing out the second panel of
prospective jurors, the trial court reminded the members of the public who were
present of its prior decision to permit only two individuals associated with each side
to sit in the courtroom.

¶7

The trial court also informed the parties and the prospective jurors of the
following:
“I do want to point out, ladies and gentlemen, that this is a case in which
*** a request for media coverage was granted and you may or may not notice
that there is a camera in the courtroom. Under the rules in which the media
have—are allowed to film and photograph proceedings, jurors are not permitted
to be photographed or filmed. Okay. Just want you to know that.” 2

2

On November 20, 2013, as the State recognizes in its brief, a photograph of defendant and his
attorney appeared in a local newspaper referencing that it had been taken in the courtroom during
the second day of jury selection. See Dimtrios Kalantzis, Kankakee Murder Trial Puts Mother of
Victim on Stand, Kankakee Daily J. (Nov. 20, 2013), https://www.daily-journal.com/news/local/

-3-

¶8

After jury selection was completed, the trial court informed the jurors again of
its decision to grant media coverage. The court allowed both family members and
members of the general public to be present in the courtroom for the remainder of
the proceedings.

¶9

The trial evidence showed that on October 26, 2011, at approximately 10 a.m.,
Kayleigh Reardanz found her daughter, M.R., unresponsive in the apartment that
she and defendant shared with Cheryl and David Heather and Kimberly and Echo
Brewington. David attempted unsuccessfully to resuscitate M.R. while they waited
for an ambulance. At the hospital, M.R. was pronounced dead. Dr. Valerie
Arangelovich, a forensic pathologist, performed the autopsy. She opined that
M.R.’s death was caused by cerebral injury due to blunt head trauma from child
abuse.

¶ 10

In early 2011, M.R. had fallen and hit her head while defendant was babysitting.
He took M.R. to the emergency room. M.R.’s CAT scans were negative, and she
was discharged. Kayleigh testified that weeks later, while her friend was
babysitting, M.R. fell and “split her eyebrow open.” Thereafter, in April 2011, M.R.
slipped in Kayleigh’s mother’s bathtub and “busted her chin.” Each time, M.R. was
taken to the hospital for medical treatment.

¶ 11

On October 22, 2011, M.R. and Kayleigh were outside playing when M.R. fell
and hit her head on the pavement. She examined M.R.’s head but saw no injury.
Kayleigh further testified of a second fall prior to M.R.’s death. During a tantrum,
M.R. threw herself backward and hit her head on the parking lot pavement.
Kayleigh testified that while M.R. was later getting her hair styled, she complained
of pain in the back of her head. She examined M.R.’s head but did not see any sign
of injury. Kayleigh testified that the second fall occurred the day prior to M.R.’s
death but later testified that she was uncertain as to the exact date, while Echo
testified that it was three days prior to the death.

¶ 12

Defendant was 17 years old at the time of M.R.’s death. He did not testify at
trial. The jury, however, viewed his videotaped police interview. He told police that
on the afternoon of October 25, 2011, he tucked M.R. into a daybed to take a nap.

kankakee-murder-trial-puts-mother-of-victim-on-stand/article_3ba1ca0f-73e5-5725-bd852068ff6e53e5 html [https://perma.cc/4Q2C-7NLL] (photograph by Mike Voss).

-4-

A few minutes later he checked on her and discovered that, instead of sleeping, she
was playing with a wooden unicorn plaque. Defendant was upset that she was not
sleeping and tucked her back into bed. He grabbed her by the arms and pushed her
from a sitting position onto her back. He speculated that she may have hit her head
on the wooden plaque. Using a stuffed bear, defendant demonstrated for police how
he forcefully tucked her back into bed. He told police that the demonstration was
less aggressive than how he actually tucked M.R. back into bed.
¶ 13

Kayleigh testified that she returned home from work around 11 p.m. on October
25. She later noticed M.R. whimpering and rubbing her feet together. M.R.
indicated to her mother that she was not in pain. Kayleigh discovered M.R.
unresponsive the next morning.

¶ 14

Two experts presented conflicting testimony regarding the manner of M.R.’s
death. Dr. Arangelovich opined that M.R.’s death was caused by blunt head trauma
from child abuse. Dr. Arangelovich observed subgaleal and subdural hemorrhages
in the back of M.R.’s head. She testified that the accidental falls M.R. experienced
prior to her death could have caused the subgaleal hemorrhages but that those
hemorrhages did not cause the baby’s death. According to Dr. Arangelovich, the
fatal injury was the subdural hemorrhage, which she opined occurred within 24
hours of M.R.’s death.

¶ 15

Dr. Shaku Teas, a forensic pathologist, believed that M.R.’s head injuries were
consistent with the accidental falls she experienced prior to her death and opined
that the injuries she sustained in those falls caused her death. Like Dr.
Arangelovich, she believed that the subdural injuries directly caused the death.
According to Dr. Teas, however, M.R.’s subdural hemorrhage was caused by an
injury that she sustained more than 24 hours prior to her death.

¶ 16

Following closing arguments, the trial court instructed the jury, inter alia, that
the offense of endangering the life or health of a child required proof that defendant
had care or custody of M.R., that he willfully caused or permitted M.R.’s life to be
endangered, and that his acts proximately caused her death.

¶ 17

The jury acquitted defendant of murder and involuntary manslaughter, but it
convicted him of endangering the life or health of a child. The trial court sentenced
defendant to 42 months in prison.

-5-

¶ 18

The appellate court, with one justice dissenting, affirmed his conviction and
sentence. 2018 IL App (3d) 140404, ¶ 62. The appellate court majority concluded
that (1) the circuit court’s partial closure of the courtroom during jury selection did
not constitute clear or obvious error, was a “trivial closure,” and was not reviewable
as second-prong plain error (id. ¶¶ 59-60); (2) no error occurred when the jury was
instructed regarding the mental state for the offense of child endangerment (id.
¶¶ 46-47); and (3) the jury could reasonably conclude based upon the evidence that
defendant willfully endangered M.R.’s life or health (id. ¶ 40). The dissenting
justice maintained that the circuit court’s exclusion of all but four members of the
public during jury selection was not trivial and constituted second-prong plain
error. Id. ¶¶ 69, 77 (McDade J., dissenting).

¶ 19

This court allowed defendant’s petition for leave to appeal. Ill. S. Ct. R. 315(a)
(eff. July 1, 2018).

¶ 20

ANALYSIS

¶ 21

I. Partial Closure of the Courtroom

¶ 22

Defendant contends that the trial court violated his sixth amendment right to a
public trial by partially closing the courtroom during jury selection. See U.S.
Const., amend. VI. Defendant concedes that he did not object to the closure and did
not raise the issue in a posttrial motion. He therefore seeks plain-error review.

¶ 23

Our plain-error doctrine allows a reviewing court to consider unpreserved error
when a clear or obvious error occurred and the evidence is so closely balanced that
the error alone threatened to tip the scales of justice against the defendant,
regardless of the seriousness of the error. People v. Piatkowski, 225 Ill. 2d 551, 565
(2007) (citing People v. Herron, 215 Ill. 2d 167, 186-87 (2005)). A reviewing court
also may consider unpreserved error when a clear or obvious error occurred and
that error is so serious that it affected the fairness of the defendant’s trial and
challenged the integrity of the judicial process, regardless of the closeness of the
evidence. Id. Defendant contends that his failure to preserve his claim should be
excused because it constitutes second-prong plain error.

-6-

¶ 24

We first must determine whether the trial court’s partial closure of the
courtroom in this case amounted to clear or obvious error by depriving him of the
right to a public trial.

¶ 25

The sixth amendment to the federal constitution provides an accused with the
right to a public trial. U.S. Const., amend. VI. The United States Supreme Court
has recognized that the protections conferred by the public trial guarantee are to
(1) ensure a fair trial, (2) remind the prosecutor and judge of their responsibility to
the accused and the importance of their functions, (3) encourage witnesses to come
forward, and (4) discourage perjury. Waller v. Georgia, 467 U.S. 39, 46 (1984).
Trial courts are obligated to take every reasonable measure to accommodate public
attendance at criminal trials. Presley v. Georgia, 558 U.S. 209, 215 (2010)
(per curiam). The right to a public trial additionally protects some interests that do
not belong solely to the defendant. Weaver v. Massachusetts, 582 U.S. ___, ___,
137 S. Ct. 1899, 1910 (2017). The right to an open courtroom also protects the
rights of the public at large and the press. Id. at ___, 137 S. Ct. at 1910; see also
Press-Enterprise Co. v. Superior Court of California, 464 U.S. 501, 508-10 (1984).
The public trial right extends to jury selection. Presley, 558 U.S. at 213.

¶ 26

Defendant contends that the trial court committed clear and obvious error when
it partially closed the courtroom without his “consent” during jury selection. He
argues that the court failed to provide an adequate justification for its decision
beyond recognizing a need to use a larger pool of prospective jurors than normal
and to seat them all at the same time. Defendant claims that, because the trial court’s
closure does not satisfy Waller’s four factor “overriding interest test,” he is
automatically entitled to a new trial.

¶ 27

In Waller, the state court ordered a weeklong suppression hearing closed to all
persons other than witnesses, court personnel, the parties, and the lawyers. Waller,
467 U.S. at 42. The trial court overruled the defendants’ objections to the closure
of the courtroom. Upon review, the Supreme Court instructed that “under the Sixth
Amendment any closure of a suppression hearing over the objections of the accused
must meet the” following tests:
“the party seeking to close the hearing must advance an overriding interest that
is likely to be prejudiced, the closure must be no broader than necessary to
protect that interest, the trial court must consider reasonable alternatives to

-7-

closing the proceeding, and it must make findings adequate to support the
closure.” (Emphasis added.) Id. at 47-48.
See also Presley, 558 U.S. at 214 (holding that these standards apply before
excluding the public from any stage of a criminal trial).
¶ 28

Although the Supreme Court recognized that there would be instances where
closure was justified, it noted that “such circumstances will be rare” and ruled that
the closure in question was unjustified. Waller, 467 U.S. at 45, 48. The Waller
Court therefore ordered a new suppression hearing that was open to the public. If
the same evidence was found admissible in that renewed pretrial proceeding, the
Court held that no new trial as to guilt would be necessary, as a new trial would
presumably be a windfall for the defendant and not in the public interest. Id. at 4950.

¶ 29

The Court further recognized that only four of the five defendants in Waller had
lodged an objection to closing the hearing. Id. at 42 n.2. Consequently, it instructed
the state court to determine on remand whether the remaining defendant was
procedurally barred from seeking relief as a matter of state law. Id. at 42 n.2.

¶ 30

Thereafter, in Presley, the courtroom, in contrast to the instant case, was
completely closed to the public during jury selection. Presley, 558 U.S. at 210. In
further contrast to this case, the defendant in Presley objected to the trial court’s
closure. Id. On review of the state supreme court’s decision allowing the closure,
the Court observed that the state court’s reasoning for the closure would allow a
courtroom to be closed during jury selection “ ‘whenever the trial judge decides,
for whatever reason, that he or she would prefer to fill the courtroom with potential
jurors rather than spectators.’ ” Id. at 215 (quoting Presley v. State, 674 S.E.2d 909,
913 (Ga. 2009) (Sears, C.J., dissenting, joined by Hunstein, P.J.)). Although the
Court expressly noted that courtroom closure may be ordered in some
circumstances, the Court stated that it was “still incumbent upon” the trial court “to
consider all reasonable alternatives to closure.” Id. at 215-16.

¶ 31

Most recently, in Weaver, the trial court excluded from the courtroom any
member of the public who was not a potential juror for the two days of jury
selection. Weaver, 582 U.S. at ___, 137 S. Ct. at 1906. The exclusion included the
defendant’s mother and his minister, who were turned away when they attempted

-8-

to attend the jury selection. Id. at ___, 137 S. Ct. at 1906. As in this case, defense
counsel did not object to the closure. Id. at ___, 137 S. Ct. at 1906. Five years after
the defendant’s conviction, he filed a motion for a new trial in state court, arguing
that his attorney had provided ineffective assistance by failing to object to the
courtroom closure. Id. at ___, 137 S. Ct. at 1906. The trial court ruled that he was
not entitled to relief. Id. at ___, 137 S. Ct. at 1906.
¶ 32

The Court ultimately affirmed, holding that in the context of a public-trial
violation during jury selection, where the error is neither preserved nor raised on
direct review but is brought later via an ineffective assistance of counsel claim, a
defendant must demonstrate prejudice to secure a new trial. Id. at ___, 137 S. Ct. at
1910-11. Because the defendant had offered no evidence or legal argument that the
outcome of his case likely would have differed had the courtroom not been fully
closed to the public, he could not prevail on his claim. Id. at ___, 137 S. Ct. at 191213.

¶ 33

The Court in Weaver reiterated its jurisprudence that not every courtroom
closure results in an unfair trial, nor does each closure affect the values underlying
the sixth amendment’s public trial guarantee. Id. at ___, 137 S. Ct. at 1909-10. The
Court stated that its precedent teaches that courtroom closure is to be avoided but
that there are some circumstances when it is justified. Id. at ___, 137 S. Ct. at 1909.
The problems that trial courts encounter in deciding whether closures are necessary,
or even deciding which members of the public to admit when seats are scarce, are
difficult ones. Id. at ___, 137 S. Ct. at 1909. The Court provided, as an example,
that a judge may want to give preliminary instructions to the venire as a whole,
rather than repeating those instructions, perhaps with unintentional differences, to
several groups of potential jurors. On the other hand, various constituencies of the
public—the family of the accused, the family of the victim, and members of the
press, among others—all have interests in observing the selection of jurors. Id. at
___, 137 S. Ct. at 1909. How best for a trial court “to manage these problems is not
a topic discussed at length in any decision or commentary the Court has found.” Id.
at ___, 137 S. Ct. at 1909.

¶ 34

This court has also analyzed issues surrounding courtroom closures. In People
v. Falaster, 173 Ill. 2d 220, 226 (1996), we held that the trial court did not
impermissibly close the courtroom when it ordered, pursuant to section 115-11 of

-9-

the Code of Criminal Procedure of 1963 (725 ILCS 5/115-11 (West 1992)), the
removal of several spectators from the courtroom during the testimony of the 14year-old victim of a sex offense. The defendant had argued that the trial court’s
order excluding spectators had to satisfy not only the requirements of section 11511 but also the limitations established in Waller and Press-Enterprise for the
closure of judicial proceedings to the press and public. Falaster, 173 Ill. 2d at 22526. We disagreed and found those limitations did not apply where the trial court
had complied with the requirements of section 115-11. Id. at 227-28. In so ruling,
we noted that the persons who were temporarily excluded from the proceedings
were not members of the defendant’s immediate family and, thus, did not have a
direct interest in the outcome of the case. Id. at 228. The trial court in Falaster also
did not impose any restrictions on the media, who were still allowed access to the
proceedings. Id. Consequently, we found that none of the evils of closed trials were
implicated. Id.
¶ 35

Similarly, in People v. Holveck, 141 Ill. 2d 84, 101 (1990), we found that the
defendant’s right to a public trial was not violated where the trial court had closed
the courtroom to spectators during the testimony of alleged child victims of sexual
offenses. The victims’ fathers and a psychologist were allowed to remain in the
courtroom, and the media was also permitted to attend. Id. Although the trial court
did not make a formal declaration of the reasons for closure, we found that the
record demonstrated the reasons and that the trial judge had adequately balanced
the necessary interests and factors before partially closing the courtroom. Id.

¶ 36

Essentially, in this case, defendant asks us to apply the same legal framework
that would be applicable to review of a complete courtroom closure, over a
defendant’s timely objection. In contrast to Waller and the other cases he relies
upon from the Court, he failed to object to the trial court’s closure, which entailed
a partial, not full, closure of the courtroom. As the State notes, under defendant’s
approach, a new trial would automatically be required whenever the trial court fails
to strictly comply with the Waller factors before excluding any spectator from jury
selection despite the lack of a contemporaneous objection. Defendant’s faulty
approach would be irrespective of the decision’s impact on the fairness and
openness of the proceeding, the reason for a defendant’s lack of objection, and the
fact that any possible error in partially closing the courtroom could have been cured
had the defendant objected.

- 10 -

¶ 37

A contemporaneous objection is particularly crucial when challenging any
courtroom closure. Defendant’s arguments before us illustrate why. He criticizes
the trial court for not making a more detailed finding of fact to support the closure
and for not considering an alternative that would have allowed more members of
the public to be present in the courtroom. Defendant fails to recognize that, if there
is no objection at trial, there is no opportunity for the judge to develop an alternative
plan to a partial closure or to explain in greater detail the justification for it. See
Weaver, 582 U.S. at ___, 137 S. Ct. at 1912. This need to lodge a contemporaneous
objection to a courtroom closure also prevents a defendant from potentially
remaining silent about a possible error and waiting to raise the issue, seeking
automatic reversal only if the case does not conclude in his favor. See People v.
Hampton, 149 Ill. 2d 71, 100 (1992) (“defense counsel could secure a reversal
simply by intentionally failing to object and, by design, depriving the trial court of
the opportunity to prevent or correct the error”).

¶ 38

We further note that the trial court’s partial closure in this case did not occur in
a vacuum without defendant’s knowledge. The defense chose the family members
who remained in the courtroom each day of jury selection. The trial court’s decision
to limit public access to the courtroom therefore required defendant’s cooperation.

¶ 39

Here, defendant was charged with the murder of his two-year-old daughter. The
trial court observed “emotions running high” due to the “nature of the case” when
it determined that a partial closure was necessary. The trial court also expressed
concern about the possibility of having to declare a mistrial if members of the public
reacted or expressed emotion in a way that impacted the venire. See Waller, 467
U.S. at 46 (“The central aim of a criminal proceeding must be to try the accused
fairly ***.”) Additionally, the trial court was aware that this case would require a
large venire in order to find a suitable jury and there were only so many seats in the
courtroom. The trial was expected to last two weeks and was to begin prior to the
Thanksgiving holiday. The parties had also listed approximately 50 potential trial
witnesses.

¶ 40

Because of these considerations, the trial court, while recognizing defendant’s
right to a public trial, attempted to work out a solution. In doing so, the trial court
allowed two family members who favored each side to remain in the courtroom
during jury selection. The court also informed the prospective jurors that it had

- 11 -

granted a request for media coverage and specifically pointed out the camera in the
courtroom. See Holveck, 141 Ill. 2d at 101 (holding that, by allowing the media to
attend, the judge preserved the defendant’s sixth amendment right to a public trial;
the trial judge considered that the media presence is, in effect, the presence of the
public). After jury selection was complete, the courtroom was open for the
remainder of the trial.
¶ 41

The trial court’s decision to partially close the courtroom did not call into
question the confidence of the public in the integrity and impartiality of the court
system. See People v. Lewis, 234 Ill. 2d 32, 48 (2009) (“Plain-error review focuses
on the fairness of a proceeding and the integrity of the judicial process.” (citing
Herron, 215 Ill. 2d at 177)). Dozens of members of the venire who did not become
jurors, along with the family members from each side who remained in the
courtroom, were able to observe the selection process. They served as the eyes and
ears of the public. There is no assertion that any juror lied or that the State or judge
committed misconduct during jury selection, and there was a complete record made
of the questioning that took place during the closure. See Weaver, 582 U.S. at ___,
137 S. Ct. at 1913.

¶ 42

Under these circumstances, we find the partial closure of the courtroom did not
constitute clear or obvious error by depriving defendant of his sixth amendment
right to a public trial. See Waller, 467 U.S. at 46 (recognizing that the right to a
public trial helps to ensure a fair trial, reminds the State and judge of their
responsibility to the accused and the importance of their functions, encourages
witnesses to come forward, and discourages perjury); see also Falaster, 173 Ill. 2d
at 227 (holding that none of the evils of a closed trial were implicated in the case).
We therefore decline to excuse defendant’s forfeiture.

¶ 43

II. Jury Instructions

¶ 44

Next, defendant contends that he was denied a fair trial because the trial court
issued two jury instructions (Illinois Pattern Jury Instructions, Criminal, Nos.
11.29, 11.30 (4th ed. 2000) (hereinafter IPI Criminal 4th)), describing the mental
state requirement for the offense of child endangerment as “willfully” rather than
“knowingly.”

- 12 -

¶ 45

Defendant did not object at trial or raise this issue in a posttrial motion. He
claims, however, that the instruction’s use of “willfully” in the absence of the
clarifying instruction of IPI Criminal 4th No. 5.01B, was plain error. 3
Alternatively, he argues that his counsel provided ineffective assistance.

¶ 46

Rule 451(c) provides that “substantial defects” in criminal jury instructions “are
not waived by failure to make timely objections thereto if the interests of justice
require.” Ill. S. Ct. R. 451(c) (eff. Apr. 8, 2013). This rule crafts a limited exception
to the general rule to correct “grave errors” and errors in cases “ ‘so factually close
that fundamental fairness requires that the jury be properly instructed.’ ” Herron,
215 Ill. 2d at 175 (quoting People v. Hopp, 209 Ill. 2d 1, 7 (2004)). Rule 451(c) is
coextensive with the “plain error” clause of Illinois Supreme Court Rule 615(a),
and we construe these rules identically. People v. Downs, 2015 IL 117934, ¶ 14.

¶ 47

Here, following IPI Criminal 4th Nos. 11.29 and 11.30, the trial court instructed
the jury that defendant should be found guilty of child endangerment if the jury
concluded, beyond a reasonable doubt, that he had care or custody over M.R., that
he willfully caused or permitted M.R.’s life to be endangered, and that his acts
proximately caused M.R.’s death.

¶ 48

In People v. Jordan, cited by defendant, this court held that “[a] person violates
the child endangerment statute when he or she ‘willfully cause[s] or permit[s] the
life or health of a child *** to be endangered or *** willfully cause[s] or permit[s]
a child to be placed in circumstances that endanger the child’s life or health.’ ” 218
Ill. 2d 255, 270 (2006) (quoting 720 ILCS 5/12-21.6(a) (West 2002)). This court
recognized that “[w]illful conduct is synonymous with knowing conduct.” Id.
Consequently, “ ‘[c]onduct performed knowingly or with knowledge is performed
willfully, within the meaning of a statute using the latter term, unless the statute
clearly requires another meaning.’ ” Id. (quoting 720 ILCS 5/4-5(b) (West 2002)).
Applying this holding, we concluded that a rational trier of fact could have found
that the defendant knowingly endangered his infant daughter’s life or health by
leaving her unattended in a vehicle. Id.

3

IPI Criminal 4th No. 5.01B, provides that “[c]onduct performed knowingly or with knowledge
is performed willfully.”

- 13 -

¶ 49

Six years later, the General Assembly amended the child endangerment statute,
effective January 1, 2013, from “willfully” to “knowingly” causes or permits the
life of a child to be endangered. See Pub. Act 97-1109, § 1-5 (eff. Jan. 1, 2013)
(recodifying section 12-21.6 as section 12C-5); see also 720 ILCS 5/12C-5 (West
2014). However, at the time of defendant’s offense, and subsequent indictment, the
child endangerment statute provided, in relevant part, “[i]t is unlawful for any
person to willfully cause or permit the life or health of a child under the age of 18
to be endangered.” (Emphasis added.) 720 ILCS 5/12-21.6(a) (West 2010).

¶ 50

The trial court provided IPI Criminal 4th Nos. 11.29 and 11.30, which tracked
the language of both the indictment and the statute governing the offense in this
case. Neither instruction directs courts to give or to even see IPI Criminal 4th No.
5.01B. In Jordan, we did not hold that it is error to instruct the jury consistent with
the statute or that a trial court must define “willfully” for the jury when no request
is made. We simply recognized, as other courts had done, that “[w]illful conduct is
synonymous with knowing conduct.” Jordan, 218 Ill. 2d at 270. Because the trial
court gave the pattern instructions, which did not require a definitional instruction
on “willfully” and tracked the language of both the statute and indictment, the trial
court did not commit clear or obvious error when instructing the jury.

¶ 51

Defendant similarly has not demonstrated that he received ineffective
assistance of counsel because his attorney failed to challenge the instructions or ask
for a clarification instruction. See People v. Cherry, 2016 IL 118728, ¶ 24 (holding
that, to satisfy the two-pronged test established in Strickland v. Washington, 466
U.S. 668 (1984), a defendant must demonstrate ineffective assistance by showing
that his counsel’s performance was deficient and that this deficient performance
prejudiced the defense). Simply put, defendant cannot show that his attorney’s
performance was deficient for failing to object to instructions that accurately stated
the law and did not require a clarification instruction. See People v. Dupree, 2018
IL 122307, ¶ 44 (to satisfy the deficient performance prong of Strickland, a
defendant must show that his counsel’s performance was so inadequate that he was
not functioning as the counsel guaranteed by the sixth amendment and, also, must
overcome the strong presumption that any challenged action or inaction may have
been the product of sound trial strategy).

- 14 -

¶ 52

CONCLUSION

¶ 53

For the reasons set forth above, we affirm the judgment of the appellate court
affirming defendant’s conviction and sentence.

¶ 54

Affirmed.

¶ 55

JUSTICE NEVILLE, dissenting:

¶ 56

Following a jury trial in the circuit court of Kankakee County, defendant
Tavarius Radford was found guilty of felony child endangerment (720 ILCS 5/1221.6(a) (West 2010)) and was sentenced to 42 months in prison. A divided panel of
the appellate court affirmed. 2018 IL App (3d) 140404. Affirming the judgment of
the appellate court, the majority holds that the trial court did not commit plain error
by (1) excluding all but four members of the public from the courtroom during the
entirety of prospective juror questioning (supra ¶¶ 22-42) and (2) failing to include
in the jury instructions on child endangerment, a required instruction that clarifies
the requisite mental state for the charged offense (supra ¶¶ 44-50).

¶ 57

The majority minimizes the legal impact of a trial court’s deprivation of a
defendant’s constitutional right to a public trial. The majority overlooks the fact
that members of the public also have a constitutional right to be present at a public
trial. The majority misperceives precedent that has established relief when a court
violates a defendant’s constitutional right to a public trial. The majority also
overlooks this court’s clear mandate to give specified Illinois Pattern Jury
Instructions when required. For the following reasons, I would reverse the
judgments of the appellate and trial courts and remand the cause to the trial court
for further proceedings. Therefore, I respectfully dissent.

¶ 58

I. BACKGROUND

¶ 59

A. Charged Offenses

¶ 60

Defendant was charged in an indictment with murder, involuntary
manslaughter, and felony child endangerment. The indictment charged that

- 15 -

defendant caused traumatic head injuries to his 26-month-old daughter, M.R.,
resulting in her death. Defendant was 17 years old at the time he was alleged to
have committed these offenses. The jury acquitted defendant of murder and
involuntary manslaughter but convicted him of felony child endangerment.

¶ 61

B. Voir Dire

¶ 62

Jury selection took place on November 18 and 19, 2013. On the first day of jury
selection and prior to the start of voir dire (the preliminary questioning of
prospective jurors), the trial court sua sponte decided to close the courtroom to all
members of the public except for “two individuals from the victim’s family and
two individuals from the defendant’s family.” During the two days of jury selection,
the trial court failed to make any finding that (1) closure was justified by an
overriding interest, (2) closure was no broader than necessary to protect that
interest, and (3) the court considered reasonable alternatives to closure pursuant to
Waller v. Georgia, 467 U.S. 39, 48 (1984).

¶ 63

Instead of considering the Waller factors, the trial court stated:
“What I’m gonna do during jury selection, it’s gonna be difficult—it’s a public
proceeding, jury selection, but here’s the problem. There’s only so many seats,
and I am going to allow during jury selection say two individuals from—I—I
take the—the courtroom appears to be divided, okay, between perhaps people
here in support of the defendant and individuals here more or less in—in—not
in support of the defendant, and I will allow two individuals from the victim’s
family and two individuals from the defendant’s family to be present during
jury selection and there may not even be room for you, but you cannot talk to
any particular—any jurors.
***
So at this time we’re gonna bring the jurors up. I am going to clear the
courtroom with the exception of the two people from each side ***.”

¶ 64

Prior to bringing the prospective jurors into the courtroom to begin their
preliminary questioning, the trial court excluded all but four members of the public
from the courtroom, stating:

- 16 -

“All right. Folks, at this time I’m gonna ask that with the exception—the very
limited exception of those who are permitted to remain in the courtroom, I’m
gonna ask that everyone else step out and make room for the jurors who are
now coming in. Thank you very much.”
Neither defendant nor his counsel objected to the trial court’s exclusion of all but
four members of the public from the courtroom during the questioning of
prospective jurors.
¶ 65

Thirty prospective jurors were called for preliminary questioning. In the first
panel of 14 prospective jurors, 4 were excused for cause, 6 were excused with
peremptory challenges, and 4 were selected as jurors. In the second panel of 16
prospective jurors, 6 were excused for cause, 4 were excused with peremptory
challenges, and 6 were selected as jurors. At the conclusion of the first day of jury
selection, 10 jurors were selected and sworn.

¶ 66

On the second day, prior to bringing out the second panel of prospective jurors,
the trial court reminded the members of the public sitting in the courtroom of its
prior decision to exclude all members of the public from the courtroom, except for
two people from each family, stating:
“I’m gonna limit it to two people for jury selection *** two individuals from—
associated with the defendant’s family, two individuals associated with the
alleged victim’s family can be in the courtroom.”

¶ 67

Nineteen prospective jurors were brought into the courtroom. The trial court
informed counsel and the prospective jurors that a “request” for media coverage of
the court proceedings had been granted and pointed out a camera located in the
courtroom. The trial court stated that the media was allowed to film and photograph
the courtroom setting, the participants in the trial, and any persons who might be in
the audience, but the media was not allowed to film or photograph the jurors.

¶ 68

After six prospective jurors were excused for cause or other reasons, jury
selection proceeded with the remaining people in the jury pool. One juror was
excused for cause, two jurors were excused by the State, an alternate juror was
excused by the defense, and two jurors and three alternates were selected and
sworn. After jury selection was completed, the trial court permitted the public,

- 17 -

family members, and spectators to reenter the courtroom.

¶ 69

C. Evidence Presented at Trial

¶ 70

On October 26, 2011, at approximately 10 a.m., Kayleigh Reardanz found her
daughter, M.R., unresponsive in the Bourbonnais apartment she and defendant
shared with her grandparents, Cheryl and David Heather. Kayleigh’s friends,
Kimberly and Echo Brewington, were also living in the apartment.

¶ 71

By the time M.R. arrived at the hospital, she had fallen into cardiac arrest.
Attempts to resuscitate M.R. were unsuccessful, and she died shortly after 11 a.m.
Dr. Valerie Arangelovich, the forensic pathologist who performed M.R.’s autopsy,
opined that her death was caused by blunt head trauma from child abuse, and M.R.’s
death certificate stated that the manner of death was homicide due to child abuse.

¶ 72

Trial testimony was presented delineating M.R.’s medical history, which
included several accidental falls where M.R. hit her head. Kayleigh testified that,
shortly after M.R. was born in August 2009, she developed a blue sclera (the tough
fibrous outer layer of tissue covering all of the eyeball except the cornea) and grew
to be unusually large for a child her age. Her pediatrician believed these were
symptoms of “osteogenesis imperfecta” (brittle bone disease) and recommended a
blood test and consultation with a geneticist. After receiving M.R.’s blood test
results, Kayleigh and defendant decided not to consult with a geneticist.

¶ 73

In January or February 2011, M.R. fell and hit her head while defendant was
babysitting her. Defendant took M.R. to a hospital emergency room, where they
were met by Kayleigh, who noticed a “knot” on M.R.’s forehead. M.R.’s computed
tomography (CT) scans were negative, and she was discharged by the treating
physician.

¶ 74

Kayleigh testified that weeks later, while her friend was babysitting, M.R. fell
and “split her eyebrow open.” Then, on Easter, M.R. slipped in Kayleigh’s mother’s
bathtub and “busted her chin.” On both occasions, M.R. was taken to the hospital
emergency room for medical care and treatment.

¶ 75

In September 2011, M.R.’s pediatrician diagnosed her with mild anemia. On
October 13, 2011, M.R. returned to her pediatrician due to a large rash on her chest.

- 18 -

Kayleigh also showed the pediatrician bite marks on M.R.’s arm where she had
bitten herself. The pediatrician opined that M.R.’s self-harm stemmed from
behavioral issues unrelated to the rash. Kayleigh testified that, after M.R.’s rash
subsided, she and defendant decided not to take her for bleeding and bruising panels
ordered by her pediatrician.
¶ 76

On October 22, 2011, four days before her death, M.R. and Kayleigh were
outside playing when M.R. fell and hit her head on the pavement. According to
Kayleigh, M.R. was chasing her, and she heard a “big bang” when M.R.’s head hit
the ground. M.R. cried and told Kayleigh that the back of her head hurt. Kayleigh
testified that she noticed some redness but did not notice any other signs of injury
and did not take M.R. to the hospital. As a precaution, Kayleigh kept M.R. awake
for at least one hour after her fall just in case she had a concussion.

¶ 77

Kayleigh and Echo gave conflicting testimony about whether M.R. suffered
another fall one day or three days prior to her death. Describing the fall, Kayleigh
and Echo testified that, during a tantrum, M.R. threw herself backward and hit her
head on the parking lot pavement outside of their apartment complex. Echo heard
M.R.’s head hit the pavement and said it was a “bad fall.” M.R. complained of head
pain but did not want anyone to touch the back of her head.

¶ 78

Kayleigh and Cheryl testified that later that night, while M.R. was getting her
hair styled, she complained of pain in the back of her head. They examined her head
but did not see any signs of injury. Kayleigh testified that these events occurred the
day before M.R.’s death, while Echo claimed they occurred three days before
M.R.’s death.

¶ 79

Kayleigh spoke with the police at the hospital and a second time days after
M.R.’s death. During these conversations, Kayleigh did not disclose M.R.’s
medical history or her prior falls because she believed that M.R. died from Sudden
Infant Death Syndrome (SIDS). After the coroner informed Kayleigh and defendant
that it had been determined that M.R. died from blunt force head trauma caused by
child abuse, Kayleigh met with the police and informed them about M.R.’s medical
history and about M.R.’s prior falls.

¶ 80

When defendant elected not to testify at his trial, the jury was allowed to view
his videotaped police interview. Defendant was 17 years old at the time he was

- 19 -

arrested and interrogated by Detective Brett Bukowski. Detective Bukowski used
the so-called “Reid Technique,” which the trial court noted at sentencing was a
controversial and coercive method of police interrogation in which the object is to
convince the suspect that confessing is in the suspect’s best interest. During the
interrogation, Detective Bukowski lied to defendant by telling him the evidence
showed that he committed an act of abuse that caused M.R.’s death. The officer
suggested that defendant committed the act of abuse sometime within 24 hours of
M.R.’s death.
¶ 81

Defendant told the officer that on the afternoon of the day before M.R.’s death,
he tucked her into bed to take a nap. A few minutes later he checked on M.R. and
discovered that, instead of sleeping, she was playing with a wooden unicorn plaque.
Defendant became annoyed that M.R. was not sleeping and tucked her back into
bed “kind of roughly.” He grabbed M.R. by her arms and pushed her from a sitting
position onto her back on the soft daybed. Defendant indicated that he was on his
knees at the time and that he held onto M.R.’s arms the whole time.

¶ 82

Defendant demonstrated on a stuffed bear, but he told police that the
demonstration did not accurately depict how he tucked M.R. into the daybed.
Defendant told police that he did not believe M.R. could have been hurt or injured
by the way he tucked her into the daybed.

¶ 83

Detective Bukowski then suggested that M.R. must have hit her head on some
object behind the daybed. Defendant then speculated that M.R. “could have” hit her
head on the wooden plaque but added that, if this occurred, it was accidental.

¶ 84

The jury also heard conflicting expert testimony regarding the manner of M.R.’s
death. The experts agreed that the subdural injuries M.R. sustained were a direct
cause of her death—they disagreed as to whether these injuries occurred within 24
hours of her death.

¶ 85

Dr. Arangelovich opined that M.R.’s death was caused by blunt head trauma
from child abuse. Dr. Arangelovich observed subgaleal and subdural hemorrhages
in the back of M.R.’s head. She testified that the accidental falls M.R. experienced
prior to her death could have caused the subgaleal hemorrhages. However, the
doctor opined that the subgaleal hemorrhages did not cause M.R.’s death—the fatal
injury was the subdural hemorrhage, which she opined occurred within 24 hours of

- 20 -

M.R.’s death. Dr. Arangelovich opined that the subdural injuries occurred within
24 hours of death based on their color and lack of healing.
¶ 86

Dr. Shaku Teas, a forensic pathologist, found no signs of child abuse in M.R.’s
autopsy record. Dr. Teas believed that M.R.’s head injuries were consistent with
the accidental falls she experienced prior to her death and opined that the head
injuries she sustained in those falls caused her death. Dr. Teas claimed it was
impossible to determine when M.R. sustained her subdural injuries because Dr.
Arangelovich failed to take blood and tissue samples from the periphery of the
injuries where healing typically begins. Dr. Teas opined that the multiple signs of
healing observed in the samples taken from the center of the subdural injuries
indicated that the injuries’ periphery would have likely shown additional signs of
healing which would more accurately determine their age. Dr. Teas opined that
M.R.’s subdural injuries were definitely more than 24 hours old when she died and
that she sustained these injuries before defendant “roughly” tucked her into bed.

¶ 87

D. Jury Instructions

¶ 88

At the close of the evidence, the trial court instructed the jury on the charged
offenses. The trial court gave an instruction based on Illinois Pattern Jury
Instructions, Criminal, Nos. 11.29, 11.30 (4th ed. 2000) (hereinafter IPI Criminal
4th) on child endangerment, which instructed the jury that “[a] person commits the
offense of endangering the life or health of a child when he has the care or custody
of a child and willfully causes or permits the life of that child to be endangered and
such acts proximately caused the death of that child.”

¶ 89

The trial court instructed the jury that in order to sustain the charge of
endangering the life or health of a child, the State must prove the following three
propositions beyond a reasonable doubt: (1) that defendant had the care or custody
of M.R., (2) that he willfully caused or permitted the life of M.R. to be endangered,
and (3) that his acts proximately caused her death. The trial court explained that the
requisite mental state for the offense of child endangerment is satisfied if the State
proved beyond a reasonable doubt that the defendant willfully caused or permitted
the life of M.R. to be endangered.

- 21 -

¶ 90

E. Jury Verdict and Sentence

¶ 91

The jury acquitted defendant of murder and involuntary manslaughter but
convicted him of felony child endangerment. At sentencing, it was noted that
defendant had no criminal history or prior arrests. The trial court sentenced
defendant to a 42-month prison term and credited defendant for time served
awaiting trial.

¶ 92

F. Appellate Court Decision

¶ 93

Defendant filed a direct appeal. He argued that (1) the State failed to prove that
his actions proximately caused M.R.’s death or that he willfully endangered her
life; (2) the trial court violated his right to a fair trial when it instructed the jury with
an instruction for the offense of child endangerment that failed to include the third
paragraph of IPI Criminal 4th No. 5.01B, which provides that “[c]onduct performed
knowingly or with knowledge is performed willfully” or, in the alternative, his
counsel was ineffective for failing to object to the instruction; and (3) the trial court
violated his constitutional right to a public trial by excluding all but four members
of the public from the courtroom during the questioning of prospective jurors.

¶ 94

A divided panel of the appellate court affirmed. 2018 IL App (3d) 140404. The
court determined that (1) the evidence adduced at trial was sufficient to prove
beyond a reasonable doubt that defendant both proximately caused the death of
M.R. and that he possessed the requisite mental state at the time of the offense and
(2) no error was committed by the trial court when it instructed the jury on the
mental state for the offense of child endangerment. Id. ¶¶ 36-47.

¶ 95

Finally, the court determined that defendant forfeited his argument that his right
to a public trial was violated because he failed to object when the trial court
excluded all but four members of the public during jury selection. Id. ¶ 54. The
court further held that the claim was not reviewable as second-prong plain error
based on its finding that the partial closure of the courtroom amounted to a “trivial
closure” that did not implicate defendant’s constitutional right to a public trial. Id.
¶¶ 55-60.

- 22 -

¶ 96

The dissenting justice disagreed with the majority’s finding that the exclusion
of all but four members of the public during jury selection was “trivial.” Id. ¶¶ 7374 (McDade, J., dissenting). The dissenting justice maintained that a “closure is not
trivial when it occurs for the entirety of the voir dire proceedings.” Id. ¶ 73.

¶ 97

The dissenting justice also maintained that the trial court’s exclusion of all but
four members of the public during the entirety of jury selection amounted to clear
error, which was not “trivial” but constituted second-prong error. Id. ¶¶ 69, 73-77.
According to the dissenting justice “an error occurred, enabling plain-error review
because the trial court violated defendant’s right to a public trial.” Id. ¶ 74. The
dissenting justice concluded that defendant was entitled to a new trial due to the
trial court’s violation of his constitutional right to a public trial. Id. ¶ 77.

¶ 98

Defendant appeals to this court. I note that defendant was sentenced in March
2014. Therefore, he could already have served his sentence. “However, the
nullification of a conviction unquestionably may have important consequences to a
defendant, whether or not the attendant sentence has been served. In such
circumstances, the probability that a criminal defendant may suffer collateral legal
consequences from a sentence already served precludes a finding of mootness.”
(Internal quotation marks omitted.) People v. Brown, 2013 IL 114196, ¶ 33; see
People v. Jordan, 218 Ill. 2d 255, 263 (2006). Accordingly, because this juvenile
defendant may suffer collateral legal consequences, we properly consider his
appeal.

¶ 99

II. ANALYSIS

¶ 100

Before this court, defendant assigns two errors to the trial court. Defendant
contends that the trial court violated his constitutional right to a public trial by
excluding all but four members of the public from the courtroom during the entirety
of prospective juror questioning. Defendant also contends the trial court denied him
a fair trial by instructing the jury with an instruction for the offense of child
endangerment that failed to include the definition of “willfully” provided in the
third paragraph of IPI Criminal 4th No. 5.01B.

¶ 101

The State’s threshold response is that defendant has procedurally defaulted both
issues. The record shows that defendant failed to object at trial regarding each

- 23 -

alleged error and failed to include each issue in his posttrial motion. To preserve an
issue for appellate review, a defendant must object both at trial and in a posttrial
motion. People v. Enoch, 122 Ill. 2d 176, 186 (1988). Defendant acknowledges that
he failed to preserve these issues for appellate review. Accordingly, these issues are
procedurally forfeited. See, e.g., People v. Bannister, 232 Ill. 2d 52, 76 (2008);
People v. Naylor, 229 Ill. 2d 584, 592 (2008).
¶ 102

However, defendant seeks review by invoking the plain-error doctrine of
Illinois Supreme Court Rule 615(a) (eff. Jan. 1, 1967). The doctrine serves as a
narrow and limited exception to the general rule of procedural default. People v.
Walker, 232 Ill. 2d 113, 124 (2009). A reviewing court may address a forfeited
claim when a clear or obvious error occurs and (1) “the evidence is so closely
balanced that the error alone threatened to tip the scales of justice against the
defendant, regardless of the seriousness of the error” or (2) “that error is so serious
that it affected the fairness of the defendant’s trial and challenged the integrity of
the judicial process, regardless of the closeness of the evidence.” People v.
Piatkowski, 225 Ill. 2d 551, 565 (2007) (citing People v. Herron, 215 Ill. 2d 167,
186-87 (2005)). “Under the second prong of plain-error review, prejudice to the
defendant is presumed because of the significance of the right involved.” People v.
Lewis, 234 Ill. 2d 32, 47 (2009). Under both prongs of the plain-error doctrine, the
burden of persuasion remains with the defendant. When a defendant fails to
establish plain error, the reviewing court must honor the procedural default. Naylor,
229 Ill. 2d at 593.

¶ 103

The initial step in conducting a plain-error analysis is to determine whether
error occurred at all, which requires a substantive review of the issue. In re
Samantha V., 234 Ill. 2d 359, 368-69 (2009); Walker, 232 Ill. 2d at 124-25. I now
review the two issues presented for plain error.

¶ 104

A. Defendant Was Denied the Constitutional Right to Public Trial

¶ 105

Defendant contends that the trial court committed clear or obvious error by
excluding the public, with the exception of four individuals, from the entirety of
prospective juror questioning. Defendant further contends that this error was not
trivial. Therefore, according to defendant, the trial court’s error constitutes secondprong plain error. Defendant asks us to reverse his conviction and remand for

- 24 -

further proceedings.

¶ 106

1. Did Clear or Obvious Error Occur?

¶ 107

Defendant contends that the trial court’s exclusion of all but four members of
the public from the courtroom during the entire questioning of prospective jurors
(A) violated his right to a public trial guaranteed by the sixth amendment to the
United States Constitution (U.S. Const., amends. VI, XIV) and (B) the right of the
public to attend the trial guaranteed by the first amendment (U.S. Const., amend.
I). Although defendant cites to our state constitutional public trial guaranty (Ill.
Const. 1970, art. I, § 8), he does not offer any argument specifically addressed
thereto. Accordingly, I consider only federal constitutional principles. See, e.g.,
People v. Nielson, 187 Ill. 2d 271, 280 (1999). The standard of review for
determining whether an individual’s constitutional rights have been violated is
de novo. People v. Hale, 2013 IL 113140, ¶ 15.

¶ 108

a. Courtroom Audience: The Power of Observation

¶ 109

Before discussing the constitutional recognition of the courtroom audience, I
examine its important and distinct identity. As a noted scholar has explained that
“[t]o protect the local criminal court audience is”
“to recognize the power that can come from observation itself. Consider the
effects that an audience can have on a routine criminal proceeding—for
example, an arraignment or a plea allocution—at which no jurors are present.
When community members gain access to a nontrial courtroom, their presence
in court does not just affect the case that they are there to see. The effect of their
presence in the courtroom can be to change the nature of the nontrial
proceedings as well. Audience members watch the players in the courtroom;
they react to what they see and hear ***. Most of all, they sit, look, and listen.
Their presence can have a palpable effect on the speakers in the courtroom.
Simply by sitting and listening, audience members have the potential to play
out *** one of the central historical functions of observers in adjudication:
‘denying the government and disputants unchecked authority to determine the
social meanings of conflicts and their resolutions.’

- 25 -

The audience’s power, born from its physical presence in the courtroom, is
bolstered by its ability to act based on what it hears: not only through voting for
district attorneys, sheriffs, and sometimes judges, but also by contributing to
public discourse at local gatherings, protests, or even in casual conversations
with neighbors. Witnessing local criminal justice policies at play in routine
cases informs audience members’ opinions about the efficacy and fairness of
those policies. Those audience members can then engage in conversation and
debate in informal settings—with family members, neighbors, co-workers, and
even while waiting in line at the courthouse—that contribute to the flow of
opinion in the ‘wild’ (that is, unregulated) public sphere. These informal
methods of political participation are crucial if ‘affected locals’ are to have
input into more formal political decisionmaking. Indeed, modern courtrooms
are often the sole sites in which the public can witness the adjudication of
disputes and thereby hold the state accountable for the ways in which it
administers that adjudication. In these ways, the potential for audience
empowerment through observation contributes to both the legitimacy and the
overall fairness of proceedings.
The act of observing can also connect audience members to outside
movements for social and legal change, including those movements that focus
explicitly on local issues of policing, prosecution, and punishment. Some local
movements recognize the political power that comes from courtroom
observation; these movements include organizing initiatives that gather
community members to attend court in support of young people accused of
crimes and ‘courtwatch’ programs, volunteer networks that promote the
prosecution of specific categories of crimes—often domestic violence—by
following specific cases and attending court when those cases are on the
calendar.” Jocelyn Simonson, The Criminal Court Audience in a Post-Trial
World, 127 Harv. L. Rev. 2173, 2182-83 (2014).
Further, it is recognized that a criminal courtroom audience is likely to be composed
of people of color:
“Who are the members of the criminal court audience? They are people who
wait in lines and fill courtrooms to watch the cases in which they or their friends,
family, or community members appear as victims, defendants, or witnesses to

- 26 -

a crime. As such, they are more likely than not to be poor people, people of
color, or both. Overwhelmingly, people arrested for crimes in the United States
are poor people of color, predominantly African Americans and Latinos.
Victims, too, disproportionately come from the same communities. In contrast,
many affluent Americans and white Americans do not set foot in a criminal
courthouse unless they are called for jury service or to act in a professional
capacity. As a consequence, even in counties with majority-white populations,
it is not surprising to walk into a local criminal courtroom and find an audience
consisting overwhelmingly of individuals of color. To be sure, not every single
audience member in every single courtroom is a poor person of color: some
defendants, victims, and their supporters come from privileged backgrounds;
the institutional press reports on particularly famous or sordid cases; school
groups attend court to learn about the criminal justice system; and some
courtwatching groups are made up of middle-class citizens who want to monitor
the ways in which courts treat other groups. My contention, however, is that
these are rare occurrences in state criminal courtrooms.
The criminal court audience on which I focus represents a constituency with
a significant stake in the workings of the criminal justice system—they are
there, after all, because they are personally affected by at least one case on the
calendar. While they wait for that one case to be called, audience members also
watch the other cases that come before the same judge: cases involving other
people accused of crimes that occurred within their community. As many
scholars have shown, crimes, arrests, and prosecutions affect not only
individuals, but also entire communities. The ‘affected locals’ in the audience,
then, are witnessing cases that not only affect their own lives, but also have
acute effects on the common experiences they share with their neighbors.
Moreover, attending and observing the adjudication of low-level criminal cases
is, for many people, their most frequent form of interaction with the workings
of their local government.” Id. at 2185-86.

¶ 110

b. Courtroom Audience Members Differ From Jurors and the Press

¶ 111

Asserting that the trial court’s nearly total closure of the courtroom did not
constitute second-prong plain error, the majority reasons: “Dozens of members of

- 27 -

the venire who did not become jurors, along with the family members from each
side who remained in the courtroom, were able to observe the selection process.
They served as the eyes and ears of the public.” Supra ¶ 41.
¶ 112

The majority’s rationalization misperceives the distinct identity of a courtroom
audience and how it differs from that of a jury:
“These features of the audience’s experiences stand in sharp contrast to the
experiences of juries. Unlike audience members, jurors must be disinterested
residents of the county—to be picked for a jury, they generally cannot have any
familiarity with the parties or the circumstances of the incident in question.
When deliberating, they are required to ignore any outside opinions about
criminal justice policy and instead apply the law to the facts as instructed. The
audience, in contrast, is made up of interested members of the community—
individuals in attendance precisely because they care and know about at least
one case on the day’s calendar. The audience is permitted to relate what it sees
and hears to its larger experiences and make connections to local policy
decisions, while the jury—as well as the judge and the parties—must confine
their statements and analyses to the case at hand.
In addition, while audiences contain many men of color and noncitizens,
juries are unlikely to include substantial numbers of either population. This
phenomenon occurs because, in addition to excluding noncitizens, the majority
of states and the federal government ban from jury service anyone convicted of
a felony, which excludes approximately thirty percent of African American
men from jury service. Indeed, men are underrepresented on juries. Even for
minorities allowed into the jury pool, evidence suggests that they are more
likely to be eliminated from criminal jury panels, especially in serious or capital
cases. The poor and the homeless are also unlikely to serve on juries due to
permanent residence requirements. Moreover, because courts draw jury pools
at the county level, venires themselves do not start out as representative of the
neighborhoods within those counties that are most affected by criminal justice
policies. In these ways, the criminal court audience has greater exposure to the
criminal justice system, but less input into its governing laws and policies, than
do jurors from more affluent neighborhoods in the same county.

- 28 -

Audience members are not asked to ‘serve’ as disinterested factfinders and
communal representatives. Nor are they attracted to the courthouse by famous
or newsworthy stories in the way that the institutional press is. Instead, audience
members arrive at their local courthouse because of actual events in their
communities that have affected them or their loved ones. Most audience
members are not there by choice; they are there because they have been drawn
into the criminal justice system in a way that may very well have been beyond
their control. But, if they can get through the courtroom doors, they have an
effect on the proceedings they witness and serve a series of functions that are
directly related to democratic values.” (Emphasis in original.) Simonson, supra,
at 2189-90.
In summation:
“As long as there are arrests and prosecutions, the audience will not stop
seeking entry into courtrooms, and they will not stop listening to what is said
there. *** The courtroom is full of poor people and people of color who have
been drawn into the criminal justice system as defendants, victims, and their
families, neighbors, and supporters, but who have little input into the priorities
and policies governing that system. If the system includes them in the
courtroom and acknowledges their presence, then they can serve an important
constitutional function in the absence of the jury.” Id. at 2194-95.

¶ 113

c. The Exclusion of the Courtroom Audience

¶ 114

Scholars recognize that “criminal court audiences are excluded from
courtrooms across the United States. These practices of exclusion underscore and
reinforce the political inequalities described above, interfering with audience
members’ ability to fulfill their constitutional role as democratic participants in
routine criminal justice.” Id. at 2190. “Physical exclusion also takes place when
courthouse administrators follow a practice of excluding community members from
courtrooms due to lack of space. *** This trend is repeated around the nation,
usually accompanied by official statements regarding concerns with overcrowding
and safety.” Id. at 2192.

- 29 -

¶ 115

d. Defendant’s Constitutional Right to a Courtroom Audience

¶ 116

The unique identity and function of a criminal court audience is incorporated in
constitutional law:
“[T]he criminal court audience is not just normatively important; it is
constitutionally important. The criminal court audience is protected by both the
defendant’s right to a public trial under the Sixth Amendment and the public’s
right to access criminal proceedings—the ‘freedom to listen’—under the First
Amendment. As a result, the audience can and should be a central constitutional
mechanism for popular accountability in modern criminal justice.” (Emphasis
in original.) Id. at 2176.

¶ 117

The United States Supreme Court has explained that the right to a public trial
is grounded “upon two different provisions of the Bill of Rights, both applicable to
the States via the Due Process Clause of the Fourteenth Amendment.” Presley v.
Georgia, 558 U.S. 209, 211-12 (2010) (per curiam).

¶ 118

In Press-Enterprise Co. v. Superior Court of California, 464 U.S. 501 (1984),
the Court extended the first amendment right of the press and public to attend a
criminal trial “not only to the trial as such but also to the voir dire proceeding in
which the jury is selected.” Waller, 467 U.S. at 44-45; see Press-Enterprise, 464
U.S. at 509 n.8 (“By contrast, the question we address—whether the voir dire
process must be open—focuses on First *** Amendment values and the historical
backdrop against which the First Amendment was enacted.”); Press-Enterprise,
464 U.S. at 516 (Stevens, J., concurring) (“The constitutional protection for the
right of access that the Court upholds today is found in the First Amendment, rather
than the public trial provision of the Sixth.”). “The public has a right to be present
[at voir dire] whether or not any party has asserted the right.” Presley, 558 U.S. at
214.

¶ 119

The Court in Press-Enterprise explained as follows:
“The value of openness lies in the fact that people not actually attending trials
can have confidence that standards of fairness are being observed; the sure
knowledge that anyone is free to attend gives assurance that established
procedures are being followed and that deviations will become known.

- 30 -

Openness thus enhances both the basic fairness of the criminal trial and the
appearance of fairness so essential to public confidence in the system.”
(Emphasis in original.) Press-Enterprise, 464 U.S. at 508.
“Closed proceedings, although not absolutely precluded, must be rare and only for
cause shown that outweighs the value of openness.” Id. at 509. The Court described
a “presumption of openness” that may be overcome only by “an overriding interest
based on findings that closure is essential to preserve higher values and is narrowly
tailored to serve that interest. The interest is to be articulated along with findings
specific enough that a reviewing court can determine whether the closure order was
properly entered.” Id. at 510.

¶ 120

e. Sixth Amendment Right of the Accused

¶ 121

In addition, the sixth amendment provides in relevant part: “In all criminal
prosecutions, the accused shall enjoy the right to a speedy and public trial ***.”
U.S. Const., amend. VI. This sixth amendment right is the right of the accused.
Presley, 558 U.S. at 212. The Court in Waller concluded that “ ‘there can be little
doubt that the explicit Sixth Amendment right of the accused is no less protective
of a public trial than the implicit First Amendment right of the press and public.’ ”
Id. (quoting Waller, 467 U.S. at 46). Thus, under both the first and sixth
amendments, the right to a public trial extends to the jury selection phase of trial,
particularly the questioning of prospective jurors. Id. at 213.

¶ 122

“While the accused does have a right to insist that the voir dire of the jurors be
public, there are exceptions to this general rule.” Id. Supreme Court case law has
clearly established:
“[T]he right to an open trial may give way in certain cases to other rights or
interests, such as the defendant’s right to a fair trial or the government’s interest
in inhibiting disclosure of sensitive information. Such circumstances will be
rare, however, and the balance of interests must be struck with special care.”
Waller, 467 U.S. at 45.

- 31 -

¶ 123
¶ 124

f. Standards for Excluding the Public From a Criminal Trial
The majority fails to consider the Waller factors that are used to evaluate
whether the public has been properly excluded from a jury trial. “Waller provided
standards for courts to apply before excluding the public from any stage of a
criminal trial[.]” Presley, 558 U.S. at 213. According to the Court’s decisional law:
“ ‘[(i)] [T]he party seeking to close the hearing must advance an overriding
interest that is likely to be prejudiced, [(ii)] the closure must be no broader than
necessary to protect that interest, [(iii)] the trial court must consider reasonable
alternatives to closing the proceeding, and [(iv)] it must make findings adequate
to support the closure.’ ” Id. at 214 (quoting Waller, 467 U.S. at 48).
The application of the four-factor “Waller test,” also known as the “overriding
interest test,” must rebut “the presumption of openness.” See Press-Enterprise, 464
U.S. at 510.

¶ 125

Applying these controlling fundamental principles to the case at bar, I would
hold that the trial court committed clear or obvious error. In affirming the trial
court’s judgment, the appellate court misapprehended and misapplied these
controlling and fundamental principles.

¶ 126

The appellate court erroneously maintained that the overriding interest test for
public trial closure “is distinguishable from this case in two ways.” 2018 IL App
(3d) 140404, ¶ 57. First, the appellate court maintained that the overriding interest
test did not apply here because defendant did not contemporaneously object to
closure. Id. However, this reasoning begs the question of whether defendant’s
procedural default should be honored or excused based on plain error. Second, the
appellate court concluded that “the trial court’s partial closure was, according to the
record, prompted by unusually large public attendance in this specific case.” Id.
However, this reason, by itself, in no way addresses, much less rebuts, the
“presumption of openness” that attached to this criminal trial. Press-Enterprise,
464 U.S. at 510.

¶ 127

In support of the appellate court’s decision, the State contends that the trial
court’s exclusion of all but four members of the public during the entire questioning
of prospective jurors was not clear or obvious error. The State does not argue that

- 32 -

this exclusion satisfied Waller’s overriding interest test. Rather, the State urges this
court to adopt another test specifically for partial closures and argues that the instant
partial closure met that standard.
¶ 128

Waller did not distinguish between total and partial closure of criminal trials. A
“total closure” involves excluding all spectators from the courtroom for some
period, with only attorneys and court staff remaining. A “partial closure” involves
excluding one or more, but not all, spectators for some period. United States v.
Simmons, 797 F.3d 409, 413 (6th Cir. 2015); State v. Turrietta, 2013-NMSC-036,
¶ 16, 308 P.3d 964. Of course, “some partial closures might approach a total closure
in practical effect.” (Internal quotation marks omitted.) Turrietta, 2013-NMSC036, ¶ 16.

¶ 129

Almost all federal courts of appeals have distinguished between the total closure
of proceedings and situations in which a courtroom is only partially closed to
certain spectators. Simmons, 797 F.3d at 413. “These courts reasoned that a less
stringent standard was justified because a partial closure does not implicate the
same secrecy and fairness concerns that a total closure does.” Woods v. Kuhlmann,
977 F.2d 74, 76 (2d Cir. 1992). Accordingly, these courts “modify the Waller test
so that the ‘overriding interest’ requirement is replaced by requiring a showing of
a ‘substantial reason’ for a partial closure, but the other three factors remain the
same.” Simmons, 797 F.3d at 414; see Woods, 977 F.2d at 77-78 (applying
remaining three Waller factors).

¶ 130

However, several state courts have applied the Waller overriding interest test to
partial closures of trials. See, e.g., Turrietta, 2013-NMSC-036, ¶ 19;
Commonwealth v. Cohen, 921 N.E.2d 906, 921 (Mass. 2010) (collecting cases).
These courts reason that the difference between an “overriding interest” and a
“substantial reason” “is not perfectly clear, other than the fact that the reviewing
court knows that the ‘substantial reason’ standard is a more lenient standard than
the ‘overriding interest’ standard.” Turrietta, 2013-NMSC-036, ¶ 19. Further, these
courts reason that Waller’s four-factor analysis “already contemplates a balancing
of competing interests in closure decisions.” People v. Jones, 750 N.E.2d 524, 529
(N.Y. 2001). “Therefore, if a reviewing court is already contemplating a partial
closure, something less than a full closure, that analysis seems to already align with

- 33 -

the Waller standard’s requirement that the closure be no broader than necessary.”
Turrietta, 2013-NMSC-036, ¶ 19.
¶ 131

Illinois courts have applied the Waller overriding interest test to partial closure
situations. See, e.g., People v. Falaster, 173 Ill. 2d 220, 225-28 (1996); People v.
Holveck, 141 Ill. 2d 84, 100-03 (1990).

¶ 132

I observe that the majority cites Falaster and Holveck in upholding the trial
court’s erroneous exclusion order. Supra ¶¶ 34-35. However, the majority’s
reliance on those cases is misplaced. Those cases upheld partial closures under
section 115-11 of the Code of Criminal Procedure of 1963 (see 725 ILCS 5/115-11
(West 1992); Ill. Rev. Stat. 1985, ch. 38, ¶ 115-11) to protect the overriding interest
of preventing psychological trauma to minor victims testifying about being sexually
assaulted. Those unique considerations were absent from defendant’s jury
selection. Further, in each of those cases, closure was ordered during the testimony
of only one juvenile witness, while in this case closure was ordered during the
examination of 49 potential jurors during a two-day period.

¶ 133

g. Lack of Courtroom Seating Is Not Overriding Reason

¶ 134

The trial court’s stated reason for the exclusion of all but four members of the
public during the prospective juror questioning was simply a lack of courtroom
seating. One court has declared that insufficient space may well provide a valid
reason for the exclusion of the public during at least some part of prospective juror
questioning when the number of prospective jurors in the jury pool are likely to fill
all or almost all of the available seats (Cohen, 921 N.E.2d at 923), but “if space in
the court room is or becomes available, the judge must make sure that members of
the public who wish to observe the proceedings are not prevented from doing so”
(id. at 924).

¶ 135

However, another court has flatly declared: “Mere courtroom overcrowding is
not an overriding interest justifying courtroom closure ***.” People v. Floyd, 988
N.E.2d 505, 507 (N.Y. 2013). A panel of our appellate court has observed:
“We cannot help but note that the trial court’s concern about space—that
this particular courtroom did not have enough seating for even one member of

- 34 -

the public—will be true of every criminal case held therein which the trial court
summons a large number of potential jurors and true for other similarly sized
courtrooms. We cannot hold that a defendant may be denied the right to a public
trial under these circumstances.” People v. Evans, 2016 IL App (1st) 142190,
¶ 18.
Accord Presley, 558 U.S. at 215 (rejecting reasoning that permits closure of
voir dire in every criminal case whenever the trial court would prefer to fill the
courtroom with venirepersons rather than spectators).
¶ 136

I need not address the “substantial reason” test specifically for partial closures
of criminal trials. The only difference between the substantial reason test and the
overriding interest test is the eponymous first factor. In the case at bar, the record
does not support the partial closure based on the second and third factors common
to both tests. Regardless of whether available courtroom seating “is a compelling
interest, only a substantial interest, or something less” (In re G.B., 2018 COA 77,
¶ 31), the trial court’s closure did not satisfy the closely connected second and third
Waller factors. Courts of review will not render advisory opinions and ordinarily
will not consider issues that are not essential to the disposition of the cases before
them or where the results are not affected regardless of how the issues are decided.
Peach v. McGovern, 2019 IL 123156, ¶ 64; People v. Brown, 236 Ill. 2d 175, 195
(2010).

¶ 137

h. Trial Court’s Exclusion Order Overly Broad

¶ 138

Contrary to the second Waller factor, the partial closure order here was broader
than necessary. For example, the record shows that seating became available as
prospective jurors were excused during the two days of jury selection. The order
excluding all but four members of the public from the courtroom during the entirety
of jury selection was too broad because it remained in effect even when the
circumstances changed because seating became available when jurors were
excused. See, e.g., Cohen, 921 N.E.2d at 924.

- 35 -

¶ 139

i. Trial Court Failed to Consider Other Reasonable Alternatives

¶ 140

Also, contrary to the third Waller factor, the trial court failed to consider
reasonable alternatives to the exclusion of all but four members of the public from
the courtroom during the entirety of the two-day jury selection. “[T]rial courts are
required to consider alternatives to closure even when they are not offered by the
parties” and “are obligated to take every reasonable measure to accommodate
public attendance at criminal trials.” Presley, 558 U.S. at 214-15. This obligation
confers an affirmative duty on judges to ensure that members of the public are not
unnecessarily excluded from courtrooms. See State v. Davis, 434 S.W.3d 549, 551
(Mo. Ct. App. 2014) (recognizing that neither the trial court in Presley nor in that
case “proactively sought alternatives to closure”). The majority’s post hoc
rationalization of the trial court’s courtroom closure (supra ¶ 39) cannot substitute
for proper Waller findings by the trial court. See Waller, 467 U.S. at 49 n.8; State
v. Morales, 2019 ND 206, ¶ 23, 932 N.W.2d 106 (“the Waller findings must be
made before a closure. *** Neither we nor the trial court can satisfy the
constitutional command with post-closure rationale for why the closure would have
been justified if the court had made the required findings.” (Emphasis in original.)).
Finally, I note that potential jurors have no constitutional right to be present in the
courtroom during jury selection.

¶ 141

“As a reviewing court, we can conceive reasonable alternatives—many of
which are based in common sense.” Evans, 2016 IL App (1st) 142190, ¶ 15. For
example, one alternative would be keeping potential jurors in jury waiting rooms,
sacred spaces reserved for jurors and not the public, until the potential jurors are to
be questioned by the court and the attorneys. Another possibility could be reserving
some seating for the public. See, e.g., Presley, 558 U.S. at 215. As other courts have
recognized, another possibility could be simply “dividing the jury venire panel to
reduce courtroom congestion.” Id.; see In re Closure of Jury Voir Dire, 516 N.W.2d
514, 516 (Mich. Ct. App. 1994) (“Further, the court gave no reason why every
member of the jury pool had to be in the courtroom at one time. The court
apparently did not even consider keeping some of the prospective jurors in jury
rooms or other parts of the courthouse until it was determined that they were needed
in the courtroom.”). Further, if the trial court contemplated any additional reasons
for excluding all but four members of the public from the courtroom during the

- 36 -

entirety of jury selection, or alternatives thereto, it did not make any findings for
the record.
¶ 142

“[E]ven assuming, arguendo, that the trial court had an overriding interest in
closing voir dire, it was still incumbent upon it to consider all reasonable
alternatives to closure. It did not, and that is all this Court needs to decide.” Presley,
558 U.S. at 216. I would hold that clear or obvious error occurred. Since this result
obtains under either the overriding interest or the substantial reason test, I need not
and do not consider adoption of the substantial reason test.

¶ 143

2. Was the Error Trivial?

¶ 144

The trial court failed to apply the Waller analysis prior to ordering the exclusion
of all but four members of the public from the courtroom during the entire two-day
jury selection, and the appellate court failed to do so on review. Indeed, the
appellate court failed to even mention Presley in its analysis of this issue. Because
excluding all but four members of the public from the courtroom during the entirety
of jury selection in the case at bar was unjustified (trial court failed to present
overriding reason for closure or reasonable alternative to juror seating), the
presumptive result under Waller is reversal of the conviction. See id. However, the
appellate court cited Peterson v. Williams, 85 F.3d 39, 42 (2d Cir. 1996), for the
proposition that “public trial violations are subject to a ‘triviality standard.’ ” 2018
IL App (3d) 140404, ¶ 56. The appellate court held “that the trial court’s partial
closure during voir dire was trivial” and concluded that no clear error occurred in
this case. Id. ¶ 60.

¶ 145

In Peterson, which the appellate court cited, the United States Court of Appeals
for the Second Circuit explained that a triviality standard is “very different” from a
harmless error inquiry because it does not dismiss a defendant’s claim on the
grounds that the defendant was “guilty anyway,” or that the defendant was not
prejudiced. Rather, a triviality standard looks to “whether the actions of the court
and the effect that they had on the conduct of the trial deprived the defendant—
whether otherwise innocent or guilty—of the protections conferred by the Sixth
Amendment.” Peterson, 85 F.3d at 42. The Second Circuit Court of Appeals
subsequently explained that “it does not follow that every temporary instance of
unjustified exclusion of the public—no matter how brief or trivial, and no matter

- 37 -

how inconsequential the proceedings that occurred during an unjustified closure—
would require that a conviction be overturned.” Gibbons v. Savage, 555 F.3d 112,
120 (2d Cir. 2009).
¶ 146

In Waller, the Supreme Court explained that the Sixth Amendment guarantee
to a public trial furthered four values: (1) ensuring a fair trial, (2) reminding the
prosecutor and judge of their responsibility to the accused and the importance of
their functions, (3) encouraging witnesses to come forward, and (4) discouraging
perjury. Waller, 467 U.S. at 46. Citing these values (Peterson, 85 F.3d at 43), the
Peterson court held that the closure in that case, which was “extremely short” and
“entirely inadvertent,” did not infringe upon these values. Id. at 43-44. The Second
Circuit Court of Appeals has explained: “Essentially, our analysis turns on whether
the conduct at issue subverts the values the drafters of the Sixth Amendment sought
to protect.” (Internal quotation marks omitted.) Gibbons, 555 F.3d at 121.

¶ 147

In addition to the appellate court in this case, another panel of the appellate
court has cited Peterson in support of a “triviality standard.” See People v. Jones,
2014 IL App (1st) 120927, ¶ 42.

¶ 148

Before this court, defendant contends that a court may not deny a defendant
relief on the ground that the exclusion of all but four members of the public from
the courtroom during the entirety of jury selection was too trivial to violate the sixth
amendment right to a public trial. I agree with defendant.

¶ 149

Initially, it must be remembered that this issue is presented in the context of
second-prong plain error. This court has concluded as follows:
“Contrary to the appellate court, we do not believe a de minimis exception can
be placed on plain error review. The exception would be difficult to implement
because it would require declaring when the dispute becomes significant rather
than de minimis. The question would necessarily arise as to where the line
should be drawn. More importantly, a de minimis exception is inconsistent with
the fundamental fairness concerns of the plain-error doctrine. Plain-error review
focuses on the fairness of a proceeding and the integrity of the judicial process.
[Citations.] An error may involve a relatively small amount of money or
unimportant matter, but still affect the integrity of the judicial process and the
fairness of the proceeding if the controversy is determined in an arbitrary or

- 38 -

unreasoned manner.” Lewis, 234 Ill. 2d at 48.

¶ 150

Public Trial Is a First and Sixth Amendment Right

¶ 151

It should be noted that a constitutional requirement of a public trial is not only
based on a defendant’s sixth amendment right but is also based on the public’s first
amendment right. Therefore, a determination that a closed proceeding does not
infringe on a defendant’s sixth amendment right to a public trial ignores and fails
to address the “value of openness” that the first amendment guarantees to the
public. Press-Enterprise, 464 U.S. at 508. Waller’s four-factor, overriding-interest
test already balances the competing interests involved and allows closure where
merited. For example, in Press-Enterprise, jury selection involved deeply personal
or sensitive questioning of prospective jurors that may have caused embarrassment.
The overriding interest in protecting the privacy of prospective jurors would have
allowed the trial court to inform them in advance that they may make a request to
discuss a matter in camera but with counsel present and on the record. Id. at 51112. “Open justice is just too important to our constitution and our state to allow us
to look for reasons to turn a blind eye to improperly locked courtroom doors.” State
v. Easterling, 137 P.3d 825, 834-35 (Wash. 2006) (en banc) (Chambers, J.,
concurring, joined by Owens and Sanders, JJ.). The Waller factors make it
unnecessary to adopt a “triviality standard.”

¶ 152

Additionally, “[e]ven if we were to indicate a tolerance for so called ‘trivial
closures,’ the closure here could not be placed in that category.” Id. at 831. In
United States v. Gupta, 699 F.3d 682, 689 (2d Cir. 2012), the Second Circuit Court
of Appeals distinguished Peterson as follows:
“Whatever the outer boundaries of our ‘triviality standard’ may be (and we see
no reason to define these boundaries in the present context), a trial court’s
intentional, unjustified closure of a courtroom during the entirety of voir dire
cannot be deemed ‘trivial.’ ”
The Gupta court explained as follows:
“ ‘[T]he value of openness’ that a public trial guarantees ‘lies in the fact that
people not actually attending trials can have confidence that standards of

- 39 -

fairness are being observed; the sure knowledge that anyone is free to attend
gives assurance that established procedures are being followed and that
deviations will become known.’ [Press-Enterprises, 464 U.S. at 508.] Thus, the
regularity of the proceedings is an important impression with which the courts
should leave observers. While a public presence will more likely bring to light
any errors that do occur, it is the openness of the proceeding itself, regardless
of what actually transpires, that imparts ‘the appearance of fairness so essential
to public confidence in the system’ as a whole. [Press-Enterprises, 464 U.S. at
508.]
Given the exceptional importance of the right to a public trial, excluding the
public for all of voir dire without justification grounded in the record [citations]
is not trivial. Indeed, to conclude otherwise would eviscerate the right entirely.
Absent the triviality exception, reversal is required here because the district
court failed to make Waller findings before excluding the public from the
courtroom.” Id.
¶ 153

The Gupta court concluded that “the importance of the public trial right dictates
that, before closing a courtroom to the public, a trial court must inform the parties
of its intentions and make explicit Waller findings. Failure to comply with this
procedure will, in nearly all cases, invite reversal.” Id. at 690.

¶ 154

In the case at bar, the trial court’s exclusion of all but four members of the
public from the courtroom during the entirety of the two-day jury selection was not
inadvertent, brief, temporary, or inconsequential. See id. at 685. Because Waller
makes it unnecessary to adopt Peterson’s “triviality framework,” I conclude that
the exclusion here clearly was not trivial. See, e.g., People v. Hassen, 2015 CO 49,
¶ 17. I would hold that the trial court violated defendant’s sixth amendment right
to a public trial and the public’s first amendment right to attend a criminal trial.

¶ 155
¶ 156

3. Did the Error Constitute Second-Prong Plain Error?
I have concluded that the trial court clearly erred in excluding all but four
members of the public from the courtroom during the entirety of the two-day jury
selection. I must next consider whether defendant’s procedural default of this issue

- 40 -

may be excused under the plain-error doctrine. Defendant argues that the trial
court’s clear error falls under the second prong of the plain-error doctrine.
¶ 157

As earlier stated, under the second prong of the plain-error doctrine, a reviewing
court may address a forfeited claim where the error is so serious that it affected the
fairness of the defendant’s trial and challenged the integrity of the judicial process.
Prejudice to the defendant is presumed because of the importance of the right
involved, regardless of the strength of the evidence. Piatkowski, 225 Ill. 2d at 565
(citing Herron, 215 Ill. 2d at 186-87).

¶ 158

Further, it is quite established that constitutional errors are divided into two
classes. One class is labeled “trial error,” which is subject to harmless-error
analysis. The other class of constitutional error, labeled “structural” error, affects
the framework within which the trial proceeds and is not simply an error in the trial
process itself. United States v. Gonzalez-Lopez, 548 U.S. 140, 148 (2006); Neder
v. United States, 527 U.S. 1, 8 (1999). Under the Supreme Court’s “traditional
categorical approach to structural errors,” “a constitutional error is either structural
or it is not.” Neder, 527 U.S. at 14. Structural errors are found in a very limited
class of cases. Id. at 8.

¶ 159

The Supreme Court has recognized three broad rationales for deeming an error
to be structural. First, an error has been deemed structural where the right that was
violated is not designed to protect the defendant from erroneous conviction but
instead protects some other interest. Second, an error is deemed structural because
of the difficulty in assessing the effect of the error. Weaver v. Massachusetts, 582
U.S. ___, ___, 137 S. Ct. 1899, 1908 (2017); see Gonzalez-Lopez, 548 U.S. at 149
n.4. Third, an error is structural if it infects the entire trial process and necessarily
renders a trial fundamentally unfair. Weaver, 582 U.S. at ___, 137 S. Ct. at 1908;
Neder, 527 U.S. at 8-9. Structural errors are so intrinsically harmful as to require
automatic reversal without regard to their effect on the outcome. Neder, 527 U.S.
at 7.

¶ 160

Structural errors include the denial of the right to a public trial. Gonzalez-Lopez,
548 U.S. at 149; Neder, 527 U.S. at 8. This is so because
“[u]nder the rubric of structural error, a courtroom closure that violates
Waller is not subject to harmless error analysis because it would be extremely

- 41 -

difficult for a defendant to come up with evidence of specific injury resulting
from an improper closure. After all, if the public is excluded from the courtroom
it is difficult, if not impossible, to demonstrate how the presence of spectators
would have deterred perjury, curbed judicial abuse, or advanced the cause of
republican self-government.” Daniel Levitas, Comment, Scaling Waller: How
Courts Have Eroded the Sixth Amendment Public Trial Right, 59 Emory L.J.
493, 524-25 (2009).
¶ 161

Surprisingly, the majority asserts that the trial court’s near-total closure of the
courtroom did not constitute second-prong plain error. Supra ¶ 41. This assertion
overlooks the Supreme Court’s “traditional categorical approach to structural
errors.” Neder, 527 U.S. at 14.

¶ 162

Although this court has not restricted the second prong of our plain-error
doctrine to the six types of structural error that have been recognized by the
Supreme Court (People v. Clark, 2016 IL 118845, ¶ 46), we have equated secondprong plain error with “structural” error (People v. Thompson, 238 Ill. 2d 598, 61314 (2010); People v. Glasper, 234 Ill. 2d 173, 197-98 (2009)). This court has
likewise recognized that the denial of the right to a public trial is “structural” error.
Thompson, 238 Ill. 2d at 609.

¶ 163

“When the constitutionally tainted portion of trial encompasses the entire juryselection process, it has been almost universally held that relief involves a new
voir dire and a new jury; perforce, it necessitates a new trial.” Steadman v. State,
360 S.W.3d 499, 510 (Tex. Crim. App. 2012) (collecting cases). Our appellate court
has so held. People v. Willis, 274 Ill. App. 3d 551, 553-54 (1995); People v. Taylor,
244 Ill. App. 3d 460, 468 (1993); see, e.g., Easterling, 137 P.3d at 832 (“The denial
of the constitutional right to a public trial is one of the limited classes of
fundamental rights not subject to harmless error analysis. *** As a result, precedent
directs that the appropriate remedy for the trial court’s constitutional error is
reversal *** and remand for new trial.”).

¶ 164

In the case at bar, however, the appellate court relied on Weaver, 582 U.S. ___,
137 S. Ct. 1899, to conclude that the trial court’s violation of defendant’s right to a
public trial did not result in automatic reversal. Again, the appellate court
misapprehended the controlling principles. Indeed, Weaver itself introduces the
issue presented in that case as follows:

- 42 -

“In the direct review context, the underlying constitutional violation—the
courtroom closure—has been treated by this court as a structural error, i.e., an
error entitling the defendant to automatic reversal without any inquiry into
prejudice. The question [presented] is whether invalidation of the conviction is
required here as well, or if the prejudice inquiry is altered when the structural
error is raised in the context of an ineffective-assistance-of-counsel claim.” Id.
at ___, 137 S. Ct. at 1905.
¶ 165

The defendant in Weaver raised the ineffective assistance of counsel claim not
on direct review but in a state collateral postconviction proceeding. Id. at ___, 137
S. Ct. at 1906. The Supreme Court “retreated from its historical practice of
uniformly treating a public trial violation as a structural error that presumes
prejudice to the defendant. It concluded that a different approach was appropriate
in instances where a defendant ties together public trial and ineffective assistance
of counsel claims.” Williams v. Burt, 949 F.3d 966, 977 (6th Cir. 2020) (discussing
Weaver). The Supreme Court recognized that the right to a public trial is structural
because it protects interests that do not belong to the defendant and because of the
difficulty in assessing the effect of the error. Weaver, 582 U.S. at___, 137 S. Ct. at
1910.

¶ 166

However, the Supreme Court observed that a trial court may deprive a
defendant of his or her right to an open courtroom by making proper Waller
findings and that a public-trial violation can occur when the trial court omits to
make proper Waller findings. Therefore, the Court reasoned that a public-trial
violation does not always result in a fundamentally unfair trial. Id. at ___, 137 S.
Ct. at 1909-10.

¶ 167

The Court then turned to the specific issue presented: “The question then
becomes what showing is necessary when the defendant does not preserve a
structural error on direct review but raises it later in the context of an ineffectiveassistance-of-counsel claim.” (Emphasis added.) Id. at ___, 137 S. Ct. at 1910. The
Supreme Court concluded that, “when a defendant raises a public-trial violation via
an ineffective-assistance-of-counsel claim, Strickland prejudice is not shown
automatically.” Id. at ___, 137 S. Ct. at 1911. Rather, the defendant must show
either a reasonable probability of a different outcome or that the particular public
trial violation was so serious as to render the trial fundamentally unfair. Id. at ___,

- 43 -

137 S. Ct. at 1911. And in the specific posture of a collateral proceeding, in which
the defendant seeks a second chance at a public trial claim, having passed on the
claim once before, the defendant carries the burden to demonstrate prejudice. Id. at
___, 137 S. Ct. at 1913. That result strikes “the proper balance between the
necessity for fair and just trials and the importance of finality of judgments.” Id. at
___, 137 S. Ct. at 1913.
¶ 168

Citing Weaver, the majority chides defendant as follows: “Defendant fails to
recognize that, if there is no objection at trial, there is no opportunity for the judge
to develop an alternative plan to a partial closure or to explain in greater detail the
justification for it.” Supra ¶ 37 (citing Weaver, 582 U.S. at ___, 137 S. Ct. at 1912).

¶ 169

However, the majority fails to recognize that, because a violation of the right to
a public trial is a structural error, it is regarded as second-prong plain error, which
excuses the failure to make an objection. Thompson, 238 Ill. 2d at 609, 613-14;
Piatkowski, 225 Ill. 2d at 565.

¶ 170

Further, the majority fails to recognize that the Supreme Court in Weaver
expressed this rationale in the context of an ineffective-assistance-of-counsel claim
on collateral review:
“The reason for placing the burden on the petitioner in this case, however,
derives both from the nature of the error [citation] and the difference between a
public-trial violation preserved and then raised on direct review and a publictrial violation raised as an ineffective-assistance-of-counsel claim. As
explained above, when a defendant objects to a courtroom closure, the trial
court can either order the courtroom opened or explain the reasons for keeping
it closed. [Citation.] When a defendant first raises the closure in an ineffectiveassistance claim, however, the trial court is deprived of the chance to cure the
violation either by opening the courtroom or by explaining the reasons for
closure.” (Emphases added.) Weaver, 582 U.S. at ___, 137 S. Ct. at 1912.
The majority also fails to recognize that the trial court had the initial obligation to
proactively seek alternatives to closure, even when they are not offered by the
parties. See Presley, 558 U.S. at 214-15; Davis, 434 S.W.3d at 551.

- 44 -

¶ 171

Weaver Does Not Apply

¶ 172

Weaver does not apply to this case. Weaver expressly limited its holding to
ineffective-assistance-of-counsel claims asserted in a postconviction proceeding.
Weaver, 582 U.S. at ___, 137 S. Ct. at 1905. This case is before us on direct review.
As the dissenting justice in the appellate court correctly noted: “The Strickland test
is not at issue in this case.” 2018 IL App (3d) 140404, ¶ 76 (McDade, J., dissenting);
see State v. Franklin, 585 S.W.3d 431, 476 (Tenn. Crim. App. 2019) (the holding
in Weaver “is limited to post-conviction proceedings”).

¶ 173

The majority’s expansion of Weaver to this case overlooks the fact that the
violation of the right to a public trial has appropriately and historically been deemed
structural error. Gonzalez-Lopez, 548 U.S. at 149; Neder, 527 U.S. at 8. The right
to a public trial protects the rights of the public, the press, and the accused. Waller,
467 U.S. at 44-46. Also, it is difficult to assess the effect of a deprivation of the
right to a public trial. Gonzalez-Lopez, 548 U.S. at 149 n.4; Waller, 467 U.S. at 49
n.9. It should be noted that the demonstration of prejudice is a practical
impossibility. Indeed, it would be difficult to imagine a case in which a defendant
would have available evidence of specific injury. Therefore, to require that a
defendant demonstrate prejudice resulting from the violation of the right to a public
trial would in most cases deprive the defendant of the public-trial guarantee. Waller,
467 U.S. at 49 n.9 (and cases cited therein); State v. Sams, 802 S.W.2d 635, 641
(Tenn. Crim. App. 1990). Accordingly, I conclude that the trial court committed
structural constitutional error, which constitutes second-prong plain error.

¶ 174

The majority concludes its rejection of defendant’s claim of a public trial
deprivation by declining to excuse defendant’s forfeiture. Supra ¶ 42. However, the
rule of procedural default and forfeiture is an admonition to the parties, not a
limitation on the jurisdiction of this court. We may look beyond considerations of
waiver in order to maintain a sound and uniform body of precedent or where the
interests of justice so require. In re Estate of Funk, 221 Ill. 2d 30, 96-97 (2006);
People v. Normand, 215 Ill. 2d 539, 543-44 (2005); People v. Wilson, 155 Ill. 2d
374, 379 (1993). This is such a case.

¶ 175

The majority’s avoidance of Waller is functionally unnecessary because

- 45 -

“Waller’s flexible test has the capacity to deal with all types of closures and
exclusions of the public—trivial or serious, partial or total. Waller’s test would
likely allow many of the trivial closures found unproblematic by lower courts,
as long as trial and appellate courts go through the process of creating the record
the Supreme Court has required. Waller’s test is much less rigid than the phrases
‘structural error’ and ‘automatic reversal’ portend, and avoiding the Waller test
undermines a right at the center of our justice system.” Kristin Saetveit, Close
Calls: Defining Courtroom Closures Under the Sixth Amendment, 68 Stan. L.
Rev. 897, 928 (2016).
¶ 176

The majority’s avoidance of Waller also encourages trial court error in this area
because
“redefining Sixth Amendment closures provides no incentive for trial judges to
correctly apply Waller in future cases. Instead, it gives them an out from the
Supreme Court’s carefully calibrated test. Appellate courts are bending over
backwards to avoid reversal, when, in actuality, retrials would encourage more
consistent application of Waller’s test at the trial level. That, in turn, would
reduce the frequency of these appeals and reversals, as trial judges would more
often avoid violating the right in the first place. A fuller conception of Waller’s
test would thus lead to a more unified doctrine, stronger protection of the right
and more up-front consideration of countervailing concerns in particular cases.”
Id. at 931.

¶ 177

Accordingly, since a violation of a defendant’s right to a public trial is a
structural error (Gonzalez-Lopez, 548 U.S. at 149), I would excuse defendant’s
procedural default. I would reverse defendant’s conviction and remand the case to
the trial court for further proceedings.

¶ 178

B. Trial Court Erred by Failing to Give Required IPI Jury Instruction

¶ 179

Defendant’s final contention concerns the jury instructions on child
endangerment. Although I would reverse and remand for further proceedings, I will
address this contention since it could recur on remand. Defendant maintains the
trial court committed clear or obvious error by failing to instruct the jury using a

- 46 -

required paragraph of IPI Criminal 4th No. 5.01B, which clarifies the requisite
mental state for the charged offense.
¶ 180

Defendant concedes that he failed to preserve this issue for review but argues
that this court may address it under the plain-error doctrine. Generally, no party
may raise on appeal the failure to give an instruction unless he shall have tendered
it. Ill. S. Ct. R. 366(b)(2)(i) (eff. Feb. 1, 1994). However, Illinois Supreme Court
Rule 451(c) (eff. July 1, 2006) provides that substantial defects in jury instructions
are not forfeited by a defendant’s failure to make timely objections if the interests
of justice require.

¶ 181

“The purpose of Rule 451(c) is to permit correction of grave errors and errors
in cases so factually close that fundamental fairness requires that the jury be
properly instructed.” People v. Sargent, 239 Ill. 2d 166, 189 (2010). Rule 451(c) is
coextensive with the plain-error clause in Rule 615(a). Bannister, 232 Ill. 2d at 77.
Therefore, before this court can address whether defendant’s contentions satisfy the
plain-error doctrine, we must first determine whether a clear or obvious error
occurred. People v. Downs, 2015 IL 117934, ¶ 15.

¶ 182

1. Did Clear or Obvious Error Occur?

¶ 183

It is well established that the function of jury instructions is to provide the jury
with the correct legal principles applicable to the evidence so that the jury may
reach a correct decision according to the law and the evidence. Bannister, 232 Ill.
2d at 81. Although the giving of jury instructions is generally reviewed for an abuse
of discretion, our standard of review is de novo when the question is whether the
jury instruction accurately conveyed the applicable law. People v. Pierce, 226 Ill.
2d 470, 475 (2007).

¶ 184

Defendant was charged with, among other crimes, felony child endangerment.
The trial court instructed the jury in accordance with IPI Criminal 4th Nos. 11.29
and 11.30, which provided that one of the propositions the State was required to
prove beyond a reasonable doubt was that defendant “willfully” caused or permitted
the life of M.R. to be endangered.

- 47 -

¶ 185

The trial court, however, did not include an additional instruction defining the
term “willfully.” Specifically, the trial court did not tender the third paragraph of
IPI Criminal 4th No. 5.01B, which provides that “[c]onduct performed knowingly
or with knowledge is performed willfully.” Defendant argues that the trial court
erred in failing to instruct the jury with the definition of “willfully” provided in the
third paragraph of IPI Criminal 4th No. 5.01B. I agree with defendant.

¶ 186

Defendant was charged with violating the former version of the child
endangerment statute, which provided:
“It is unlawful for any person to willfully cause or permit the life or health of a
child under the age of 18 to be endangered or to willfully cause or permit a child
to be placed in circumstances that endanger the child’s life or health ***.” 720
ILCS 5/12-21.6(a) (West 2010).

¶ 187

In 2006, this court construed the term “willfully” in the statute to mean
“knowingly.” See Jordan, 218 Ill. 2d at 270 (“Willful conduct is synonymous with
knowing conduct.”). Effective January 1, 2013, prior to defendant’s jury trial, the
General Assembly amended the child endangerment statute. The legislature
conformed the provision to Jordan by replacing the term “willfully” with the term
“knowingly.” Compare 720 ILCS 5/12-21.6(a) (West 2010), with 720 ILCS 5/12C5(a) (West 2012); see Pub. Act 97-1109, § 1-5 (eff. Jan. 1, 2013).

¶ 188

At the time of defendant’s jury trial, the child endangerment statute provided in
relevant part:
“(a) A person commits endangering the life or health of a child when he or
she knowingly: (1) causes or permits the life or health of a child under the age
of 18 to be endangered; or (2) causes or permits a child to be placed in
circumstances that endanger the child’s life or health.” 720 ILCS 5/12C-5(a)
(West 2012).

¶ 189

In this case, the trial court erred by instructing the jury with a child
endangerment jury instruction that did not accurately include the requisite mental
state for this charged offense. The jury instruction failed to instruct the jury that the
State was required to establish defendant’s culpability by showing that he acted
knowingly rather than willfully. And the error was compounded by the trial court’s

- 48 -

failure to instruct the jury with the definition of “willfully” provided in the third
paragraph of IPI Criminal 4th No. 5.01B.
¶ 190

The majority concludes that the trial court did not commit clear or obvious error
when instructing the jury. The majority reasons: “The trial court provided IPI
Criminal 4th Nos. 11.29 and 11.30, which tracked the language of both the
indictment and the statute governing the offense in this case. Neither instruction
directs courts to give or to even see IPI Criminal 4th No. 5.01B.” Supra ¶ 50.

¶ 191

However, the committee notes to IPI Criminal 4th No. 5.01B provide that, when
willfulness is an issue, the trial court is required to determine whether the statute
using that term “ ‘clearly requires another meaning’ ” and, if so, the jury should be
instructed accordingly. IPI Criminal 4th No. 5.01B, Committee Note, at 143. When
the trial court instructed the jury on the elements of child endangerment, the term
“willfully” clearly required another meaning, namely “knowingly.” IPI Criminal
4th No. 5.01B. Our court has previously noted that, according to the user’s guide
to IPI Criminal 4th, “ ‘[i]f a Committee Note indicates to give another instruction,
that is a mandatory requirement.’ ” People v. Hopp, 209 Ill. 2d 1, 7 (2004) (quoting
IPI Criminal 4th, User’s Guide, at VIII). Therefore, since the trial court failed to
give the jurors the proper instruction for the charged offense (720 ILCS 5/1221.6(a) (West 2010)) and failed to follow the pattern instructions’ definition of
“willfully” (IPI Criminal 4th No. 5.01B), I would hold that clear or obvious error
occurred.

¶ 192

2. Did the Error Constitute Plain Error?

¶ 193

Since I have determined that the trial court erred by instructing the jury with the
wrong child endangerment jury instruction that failed to include the definition of
“willfully” as provided in the third paragraph of IPI Criminal 4th No. 5.01B, I must
next determine whether this failure amounted to plain error. Defendant alternatively
argues that the trial court’s error falls under both the first and second prongs of the
plain-error doctrine.

¶ 194

The State initially responds that the defendant’s challenge to the trial court’s
alleged error regarding the child endangerment jury instruction is procedurally
barred because he invited the alleged error by tendering or agreeing to the

- 49 -

instruction. A review of the instruction conference in the record does not support
the State’s claim.
¶ 195

Under the doctrine of invited error, where defense counsel tenders or agrees to
a jury instruction, the defendant is estopped from challenging the propriety of that
instruction on appeal. People v. Parker, 223 Ill. 2d 494, 508 (2006). In such
circumstances, plain-error review is unavailable. People v. Patrick, 233 Ill. 2d 62,
77 (2009).

¶ 196

Here, the record shows that it was the State, not defense counsel, that tendered
the jury instruction that included the term “willfully.” Defense counsel did not
request that the trial court use the term. Rather, defense counsel argued that the
phrase “health of the child be injured” should not be included in the jury instruction.
The parties and the trial court agreed that the phrase should be removed from the
instruction. The fact that defense counsel voiced no objection to the modified
instruction does not mean that she requested the trial court to use the term
“willfully” in the instruction. Defense counsel simply failed to make an objection
to the modified instruction, which does not constitute acquiescence.

¶ 197

The State next argues that, even if the trial court clearly or obviously erred by
not defining the term “willfully” for the jury, the error did not render defendant’s
trial unfair under either the first or second prongs of the plain-error doctrine. Indeed,
the State claims that defendant “benefitted” from the inherent ambiguity of the term
because the jury could have understood “willfully” to mean more than “knowledge”
and thereby held the State to a higher burden of proof than was required. I disagree.

¶ 198

This court’s plain-error doctrine instructs us that “we are concerned with two
ways in which the fairness of the defendant’s trial can be compromised by
unpreserved error.” Herron, 215 Ill. 2d at 177. I conclude that the trial court’s jury
instruction error compromised the fairness of defendant’s trial under both prongs
of the plain-error doctrine.

¶ 199

Evidence Closely Balanced

¶ 200

I would hold that the trial court’s jury instruction error constituted plain error
under the first prong of plain-error review because the evidence was closely

- 50 -

balanced as to whether defendant “knowingly” endangered M.R.’s life. In this case,
in order to find defendant guilty of felony child endangerment, the jury was
required to find beyond a reasonable doubt that he knowingly “caused or permitted
the life of [M.R.] to be endangered” and that his actions proximately caused her
death. In other words, the jury had to find that defendant knew at the time that he
allegedly committed the charged conduct that this conduct endangered M.R.’s life.
¶ 201

However, in acquitting defendant of knowing murder and reckless involuntary
manslaughter—criminal charges that were based on the same alleged conduct—the
jury evidently determined that defendant did not knowingly or even recklessly
cause M.R.’s death. In attempting to explain how the jury could have found
defendant guilty of felony child endangerment while acquitting him of murder and
reckless involuntary manslaughter, the trial court advanced the theory that this was
an “eggshell skull” situation, where, although what defendant did would not have
caused the death of a healthy child, his actions contributed to M.R.’s death because
she was in a weakened state as a result of her prior falls. In addition, the prosecutor
explained that it was his belief that “the jury *** did not believe that [defendant]
throwing [M.R.] down on the bed was an act likely to cause death or great bodily
harm” and that the jury found that defendant “didn’t necessarily think he was doing
anything that bad” when he performed the act in question.

¶ 202

Thus, it is evident from the comments of the trial court and prosecutor that the
evidence was closely balanced as to whether defendant “knowingly” endangered
M.R.’s life. The jury verdicts of acquittal on counts I and II (murder and involuntary
manslaughter), in which the jury was properly instructed with the mental state terms
for knowledge and recklessness, is evidence of the fact that defendant would not
have been convicted of felony child endangerment if the jury had been properly
instructed with the third paragraph of IPI Criminal 4th No. 5.01B, defining the term
“willfully” as meaning “knowingly.” I find that, with defendant’s acquittal of
murder and involuntary manslaughter, the evidence was so closely balanced that
the trial court’s failure to properly instruct the jury with the third paragraph of IPI
Criminal 4th No. 5.01B threatened to tip the scales of justice against defendant. See
Piatkowski, 225 Ill. 2d at 565.

¶ 203

Moreover, regardless of the closeness of the evidence, I find that the trial court’s
failure to properly instruct the jury with the third paragraph of IPI Criminal 4th No.

- 51 -

5.01B rose to the level of second-prong plain error. The State points out that our
court has drawn a distinction between errors in failing to instruct on an essential
element of a charged offense and errors in failing to define the mental state of a
charged offense, and the State argues that the former may constitute second-prong
error while the latter does not. People v. Carlson, 79 Ill. 2d 564, 583-84 (1980).
¶ 204

While I agree with the State that our court has drawn such a distinction, I
disagree with the State’s conclusion. Our court has determined that the erroneous
omission of a jury instruction rises to the level of second-prong plain error when
the omission creates a serious risk that the jurors incorrectly convicted defendant
because they did not consider the correct mental state and, therefore, did not
understand the applicable law so as to severely threaten the fairness of the trial.
Sargent, 239 Ill. 2d at 190-91; Hopp, 209 Ill. 2d at 12.

¶ 205

For example, in People v. Ogunsola, 87 Ill. 2d 216, 222-23 (1981), our court
determined that the trial court erred by instructing the jury with a modified jury
instruction on deceptive practices that omitted any reference to the “intent to
defraud.” The court held that the mental state of intent to defraud was distinct and
different from the mental state of knowledge. Id. at 221. The court added that the
intent to defraud was an essential element of the offense of deceptive practices and
that its “omission removed from the jury’s consideration a disputed issue essential
to the determination of defendant’s guilt or innocence.” Id. at 222-23. The court
stated that “[t]he complete omission of an issue as central to the criminal trial as a
part of the definition of the crime charged deprives the jury of the guidance it must
have properly to decide the case.” Id. at 223.

¶ 206

Similarly, in this case, the trial court instructed the jury with a child
endangerment instruction that omitted the essential mental state element of the
charged offense, namely knowledge. The error was compounded by the trial court’s
failure to properly instruct the jury with the third paragraph of IPI Criminal 4th No.
5.01B, defining the term “willfully” as meaning “knowingly.” The trial court’s
omission prevented the jury from considering whether defendant “knowingly”
endangered M.R.’s life, a mental state element essential to the determination of his
guilt or innocence. See id.

¶ 207

Based upon the record before us, I find that defendant has satisfied his burden
of establishing that the trial court erred when it gave the jury an instruction for the

- 52 -

offense of child endangerment that failed to include the definition of “willfully”
provided in the third paragraph of IPI Criminal 4th No. 5.01B. The trial court’s
error constituted second-prong plain error because it created a serious risk that the
jurors convicted the defendant of felony child endangerment due to their failure to
be instructed with the proper mental state and this instruction error severely
threatened the fairness of the trial. Sargent, 239 Ill. 2d at 191; Hopp, 209 Ill. 2d at
7-8. Accordingly, I conclude that defendant’s conviction for felony child
endangerment must be reversed.
¶ 208

In light of my conclusion, I need not address defendant’s alternative contention
that he was denied the effective assistance of counsel when his trial counsel failed
to preserve this issue for review. See, e.g., In re Appointment of Special Prosecutor,
2019 IL 122949, ¶ 68.

¶ 209

Lastly, I would find that the evidence, although close, was sufficient to prove
defendant guilty beyond a reasonable doubt. This finding removes the risk of
subjecting defendant to double jeopardy. See People v. Manning, 182 Ill. 2d 193,
218 (1998). By this finding, however, I would reach no conclusion as to defendant’s
guilt that would be binding on retrial. Naylor, 229 Ill. 2d at 611.

¶ 210

III. CONCLUSION

¶ 211

The majority misapprehended the law when it failed to find that the trial court
(1) violated defendant’s sixth amendment right and the public’s first amendment
right to a public trial and (2) committed structural error when it excluded all but
four members of the public from defendant’s trial during jury selection. The
majority also misapprehended the law when it failed to find that the trial court
committed plain error when it failed to include in the jury instruction on child
endangerment a required instruction that clarifies the requisite mental state for the
charged offense and by doing so denied the defendant his right to a fair trial.

¶ 212

Moreover, this court has recognized its duty to work against implicit and
unconscious bias in Illinois’s courts by approving a mandatory implicit bias
instruction. See Illinois Pattern Jury Instructions, Civil, No. 1.08 (rev. May 2019)
(Implicit Bias) (hereinafter IPI Civil No. 1.08). The comment to the instruction
explains in part as follows:

- 53 -

“The literature on implicit bias explains that everyone has implicit biases.
This means that judges and jurors are not immune. *** It is particularly
important for judges and jurors, who strive to be impartial decision-makers, to
be aware of this phenomenon and to try to guard against it for purposes of the
trial.” IPI Civil No. 1.08, Comment (rev. May 2019).
In guarding against implicit bias, I think this court can and should take judicial
notice of the fact that (1) Kankakee County, where this case was tried, is 70% white
and 15% African American; (2) the juvenile mother of M.R., the decedent child, is
white; (3) M.R. was mixed race; and (4) the juvenile defendant is African
American. Based on (1) the aforementioned demographics, (2) the fact that the
races of the defendant and the mother may have triggered the unconscious biases
of the judge and jurors, and (3) my and the courts’ obligation to ensure equal justice
for all, I cannot excuse the trial court’s closure of this juvenile African American
defendant’s trial during jury selection. In addition, I cannot affirm the conviction
of this juvenile defendant with no criminal background when it is based on a verdict
where the jury was not properly instructed with the correct mental state. Therefore,
I respectfully dissent, and I would reverse the judgments of the appellate court and
the circuit court of Kankakee County and remand the cause to the circuit court for
further proceedings.

¶ 213

JUSTICE MICHAEL J. BURKE took no part in the consideration or decision
of this case.

- 54 -

APPENDIX C

2018 IL App (3d) 140404
Opinion filed July 13, 2018
_____________________________________________________________________________
IN THE
APPELLATE COURT OF ILLINOIS
THIRD DISTRICT
2018
THE PEOPLE OF THE STATE OF ILLINOIS, )
Appeal from the Circuit Court
)
of the 21st Judicial Circuit,
Plaintiff-Appellee,
)
Kankakee County, Illinois.
)
v.
)
Appeal No. 3-14-0404
)
Circuit No. 11-CF-662
TAVARIUS D. RADFORD,
)
)
Honorable Clark Erickson,
Defendant-Appellant.
)
Judge, Presiding.
_____________________________________________________________________________
JUSTICE SCHMIDT delivered the judgment of the court, with opinion.
Justice Wright concurred in the judgment and opinion.
Justice McDade dissented, with opinion.
OPINION
¶1

A jury convicted defendant, Tavarius D. Radford, of felony child endangerment (720
ILCS 5/12-21.6(a) (West 2010)), for which the trial court sentenced him to 42 months in prison.
Defendant now appeals his conviction. First, defendant argues that the State’s evidence failed to
prove his guilt beyond a reasonable doubt. Second, he contends that the trial court plainly erred
by issuing a child endangerment jury instruction that misstated the requisite mens rea or, in the
alternative, counsel provided ineffective assistance by not objecting to the instruction. Finally,
defendant claims the trial court violated his right to a public trial by partially closing the

courtroom during voir dire and, later in the trial, asking journalism students in the audience to
find a seat or leave the courtroom. For the following reasons, we affirm defendant’s conviction.
¶2
¶3

BACKGROUND
The State charged defendant with murder and child endangerment after his 26-month-old
daughter died from traumatic head injuries on October 26, 2011. Around 10 a.m. that morning,
Kayleigh Reardanz found her daughter, M.R., unresponsive in their Bourbonnais apartment. By
the time she reached the hospital, M.R. had fallen into cardiac arrest. After attempting to
resuscitate her, the treating physician pronounced M.R. dead shortly after 11 a.m. The forensic
pathologist who performed M.R.’s autopsy concluded that blunt head trauma from child abuse
caused her death. M.R.’s death certificate described her manner of death as homicide due to child
abuse. Defendant’s jury trial began November 18, 2013.

¶4

Prior to voir dire , the trial court recognized that, although jury selection is a public
proceeding, the courtroom could not accommodate over 90 potential jurors and spectators
present for the proceedings. The record indicates that M.R.’s family members and other members
of the public regularly attended pretrial hearings. Due to the nature of the case, the trial court
also noted that the large congregation of spectators with “emotions running high” risked
contaminating the jury pool.

¶5

The court observed that the spectators appeared equally divided between those who
supported defendant and those who did not. In an effort to preserve defendant’s public trial right
and proceed with jury selection, the court asked all spectators, except two who supported
defendant and two who did not, to leave the courtroom. The court let the spectators decide who
would remain in the courtroom. Neither defendant nor his counsel objected to this partial closure.

2

¶6

Kayleigh testified that she, defendant, and M.R. lived in the Bourbonnais apartment for
approximately one month before M.R.’s death. They lived in the apartment with Kayleigh’s
grandparents, Cheryl and David Heather, and close friends, Kimberly and Echo Brewington. On
October 26, 2011, Kayleigh found M.R. unresponsive around 10 a.m. Her skin was blue in color
and very cold. Kayleigh became upset and yelled for help. She called 911 and handed the phone
to Kimberly. Before the ambulance arrived, David attempted to resuscitate M.R. by performing
CPR. Doctors pronounced M.R. dead just after 11 a.m.

¶7

Kayleigh spoke with police at the hospital and again days after M.R.’s death. During
these conversations, Kayleigh did not disclose M.R.’s prior falls or medical history. She testified
that she believed M.R. died from sudden infant death syndrome (SIDS), so she did not think to
disclose M.R.’s prior falls to police. After M.R.’s autopsy revealed that she died from head
trauma caused by child abuse, police interviewed Kayleigh a third time. This time, she informed
police of M.R.’s prior falls and medical history.

¶8

Kayleigh testified that M.R. was born in August 2009. Soon after, M.R. developed a blue
sclera and grew to be unusually large for her age. Her pediatrician believed these symptoms were
consistent with osteogenesis imperfecta (brittle bone disease) and recommended a blood test and
appointment with a geneticist. When Kayleigh and defendant received M.R.’s blood test results,
they decided not to consult the geneticist.

¶9

In January or February 2011, M.R. fell down and hit her head while defendant babysat
her. Defendant took M.R. to the emergency room; Kayleigh met him there. M.R.’s computed
tomography (CT) scans were negative, and the treating physician discharged her. Kayleigh
noticed a “knot” on M.R.’s forehead at the hospital.

3

¶ 10

Kayleigh also testified that M.R. “split her eyebrow open” later in 2011 while Kayleigh’s
friend babysat. Then, on Easter in 2011, M.R. slipped in Kayleigh’s mother’s bathtub and
“busted her chin.” M.R. went to the emergency room after both falls.

¶ 11

In September 2011, M.R.’s pediatrician diagnosed her with mild anemia. On October 13,
Kayleigh again took M.R. to her pediatrician due to a large rash on her chest. Kayleigh pointed
out bite marks on M.R.’s arm where she bit herself. The pediatrician believed that capillary
hemangiomas caused M.R.’s rash. M.R.’s self-harm stemmed from a behavioral issue unrelated
to the rash. The rash subsided the next day, so defendant and Kayleigh never took M.R. to
undergo bleeding and bruising panels that her pediatrician ordered.

¶ 12

On October 22, M.R. fell and hit her head on the pavement while playing outside with
Kayleigh. Kayleigh examined M.R.’s head but saw no injury; she did not take M.R. to the
hospital. However, she kept M.R. awake for at least one hour after the fall in case she sustained a
concussion.

¶ 13

Kayleigh also testified that M.R. fell the day before her death. She threw herself
backwards during a tantrum and hit her head on the pavement. After the incident, M.R.
complained of head pain. While Kimberly and Kayleigh were styling M.R.’s hair later that night,
M.R. complained of pain when they touched the back of her head. Cheryl, Kimberly, and
Kayleigh examined M.R.’s head but did not see any indication of injury. Although Kayleigh
stated these events occurred the day before M.R.’s death, Echo testified that it occurred on
October 23, three days before M.R.’s death.

¶ 14

Kayleigh stated that she worked from 3 p.m. until 11 p.m. on October 25. When she
returned to the apartment after work, she noticed M.R. whimpering and shaking. Kayleigh asked
M.R. if she was in pain; she indicated that she was not. M.R. commonly shook when she became

4

impatient, so Kayleigh was not alarmed by M.R.’s behavior. Kayleigh discovered M.R.
unresponsive the next morning.
¶ 15

Cheryl testified that Kayleigh took her to the grocery store in the early afternoon on
October 25. M.R. was asleep when Cheryl and Kayleigh returned to the apartment before 3 p.m.
After quickly getting ready, Kayleigh left for work around 3 p.m. At around 5 p.m., Cheryl
agreed to watch M.R., who was still asleep, while defendant and Echo biked to Kankakee.

¶ 16

Echo testified that she and defendant were gone for at least two hours—they biked to a
friend’s house, purchased marijuana, and smoked it in a nearby park. M.R. was still asleep when
defendant and Echo returned to the apartment around 7 p.m.

¶ 17

Although defendant did not testify on his own behalf, the jury viewed his videotaped
police interview. Before the jury viewed the interview, journalism students from a local
university entered the courtroom to observe the proceedings, specifically the interview. The trial
court asked the students to “find a place to sit” or they would have to leave the courtroom. The
record does not indicate whether any of the students left the courtroom.

¶ 18

During the interview, defendant told police that he tucked M.R. in for a nap before 3 p.m.
on October 25. A few minutes later, defendant returned to check on M.R. She was playing with a
wooden unicorn plaque instead of sleeping. Defendant grew angry at M.R.’s insubordination and
tucked her in “kind of roughly.” He immediately apologized to M.R. and told her that he loved
her.

¶ 19

Defendant told police that he did not believe M.R. could have been injured when he
tucked her in. He speculated that she may have hit her head on the wooden plaque, but he was
uncertain. However, when defendant demonstrated his action toward M.R. on a stuffed bear, he

5

told police the demonstration was less aggressive than how he tucked M.R. in because he did not
want to hurt the bear.
¶ 20

Defendant also told police that M.R.’s naps would typically last between 60 and 90
minutes; on October, 25, she slept for at least 4 hours. She seemed to have no appetite and ate
very little at dinner after she awoke from her nap. Defendant also told police that M.R. may have
vomited after dinner, but he could not remember for certain.

¶ 21

Two experts presented crucial testimony regarding M.R.’s manner of death. Dr. Valerie
Arangelovich, the forensic pathologist who performed M.R.’s autopsy, opined that abuse caused
M.R.’s fatal head trauma. Dr. Shaku Teas, an experienced forensic pathologist, disagreed with
Arangelovich’s conclusion and criticized her methods. Teas found no signs of child abuse in
M.R.’s autopsy record.

¶ 22

Specifically, Teas disagreed with Arangelovich’s conclusion that M.R.’s fatal injuries
occurred within 24 hours of her death. Arangelovich found subgaleal and subdural injuries in
M.R.’s brain—both experts agreed that the subdural injuries directly caused M.R.’s death. Both
experts also agreed that the subgaleal injuries were likely old injuries. Arangelovich found iron
when she sampled M.R.’s subgaleal injuries. Iron in adult injuries indicates the injury is at least
three days old; there is no accepted iron-testing scale for children.

¶ 23

Arangelovich also observed “very rare” fibroblasts in M.R.’s subdural injuries. In adults,
fibroblasts do not appear until at least three days after sustaining an injury. In children,
fibroblasts can occur naturally or in response to an injury. Arangelovich could not determine
whether the fibroblasts presented naturally or in response to M.R.’s subdural injuries; nor could
she opine with reasonable certainty whether the adult fibroblast timeline also applies to children.

6

However, Arangelovich opined that M.R.’s subdural injuries occurred within 24 hours of her
death due to their color and lack of healing.
¶ 24

Teas testified that it was impossible to determine when M.R. sustained her subdural
injuries because Arangelovich failed to take blood and tissue samples from the periphery of
M.R.’s injuries, where healing typically begins. According to Teas, taking samples exclusively
from the center of an injury does not provide necessary data to determine the injury’s age. Teas
noted multiple signs of healing in Arangelovich’s samples of M.R.’s subdural injuries. Teas
opined that these signs of healing in the center of M.R.’s subdural injuries indicate that the
injuries’ periphery would likely show additional healing that would more accurately determine
their age. From this evidence, Teas opined that M.R.’s subdural and subgaleal injuries were
“definitely” more than 24 hours old when she died—M.R. sustained them before defendant
“roughly” tucked her in on October 25. Teas also opined that Arangelovich’s autopsy file did not
definitively show that abuse, rather than accidental falls, caused M.R.’s fatal injuries.

¶ 25

At the close of evidence, the State tendered a jury instruction on involuntary
manslaughter. Defense counsel conceded that defendant had no basis to object because
involuntary manslaughter is a lesser-included offense of murder. The trial court issued the
instruction. The jury acquitted defendant of murder and involuntary manslaughter but convicted
him of child endangerment.

¶ 26

Defendant was 17 years old when M.R. died. His presentence report contained letters
from friends, relatives, neighbors, and teachers who stated that defendant was a good kid who
would never hurt anyone. Although defendant admitted during his police interview that he
smoked marijuana, he had no criminal history. No witness testified that defendant abused M.R.
prior to October 25, 2011. The trial court sentenced him to 42 months in prison. After

7

defendant’s sentencing hearing, the trial court denied his motion to reconsider. This appeal
followed.
¶ 27
¶ 28

ANALYSIS
Defendant makes three arguments challenging his conviction. First, he claims that the
State failed to prove him guilty beyond a reasonable doubt. Specifically, defendant argues that
even if his actions proximately caused M.R.’s death (which he disputes), the State failed to prove
defendant willfully or knowingly endangered M.R.’s life. Second, defendant asserts that the trial
court erred by instructing the jury that child endangerment’s state-of-mind element requires
“willfully,” rather than “knowingly,” causing or permitting a child’s life or health to be
endangered. Defendant argues the trial court’s misleading instruction constituted plain error or,
in the alternative, his counsel provided ineffective assistance by failing to object. Finally,
defendant claims the trial court denied him a public trial when it partially closed the courtroom
during voir dire and, later in the trial, when it instructed journalism students to find a seat or
leave the courtroom. We address each argument in turn.

¶ 29
¶ 30

I. Sufficiency of the Evidence
When a defendant challenges the sufficiency of the evidence supporting his conviction,
the standard of review is whether, after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the offense’s essential elements proven
beyond a reasonable doubt. People v. Pollock , 202 Ill. 2d 189, 217 (2002). Reviewing courts do
not retry defendants, reweigh trial evidence, or otherwise undermine the fact finder’s judgment.

People v. Tenney , 205 Ill. 2d 411, 428 (2002). A conviction will stand unless the evidence is so
improbable, unsatisfactory, or inconclusive that it creates a reasonable doubt of the defendant’s
guilt. People v. Evans , 209 Ill. 2d 194, 209 (2004).

8

¶ 31

The State charged defendant with felony child endangerment. The State had to prove that
(1) M.R. was in defendant’s care or custody, (2) defendant willfully caused or permitted M.R.’s
life to be endangered, and (3) defendant’s acts proximately caused M.R.’s death. See 720 ILCS
5/12-21.6 (West 2010). Defendant claims that the State failed to prove that his actions
proximately caused M.R.’s death or that he willfully endangered M.R.’s life.

¶ 32
¶ 33

A. Proximate Cause
In support of his proximate cause argument, defendant claims that he “presented a strong
case that M.R.’s death was caused by an accidental fall,” not by his action. He emphasizes
Kayleigh’s trial testimony stating that M.R. suffered head injuries from accidental falls before
her death. He also highlights Dr. Teas’s opinion that M.R.’s fatal injuries occurred more than 24
hours prior to her death, before defendant tucked her in “kind of roughly.” Teas also opined that
M.R.’s injuries did not show signs of abuse.

¶ 34

On the other hand, Dr. Arangelovich opined that M.R.’s fatal injuries occurred within 24
hours of her death. She also opined that abuse caused M.R.’s injuries. Combining
Arangelovich’s opinion with defendant’s police interview, the State presented an “eggshell
skull” theory; M.R.’s prior falls and medical issues made her more susceptible to fatal head
trauma but did not cause her death. According to the State, defendant’s admittedly aggressive
act, tucking M.R. in “roughly,” endangered her life and proximately caused her death.

¶ 35

Essentially, this issue turned on the jury’s perception of opposing expert opinions. Other
trial evidence and testimony did not overwhelmingly support either expert’s opinion. Although
testimony regarding M.R.’s prior falls tends to support Dr. Teas’s opinion, Kayleigh did not
disclose M.R.’s prior falls to police until her autopsy report concluded she was abused. The jury
could have reasonably discredited this testimony. Moreover, Arangelovich agreed with Teas that

9

M.R. had preexisting head injuries when she died; the experts disagreed as to whether new
injuries caused her death.
¶ 36

The jury apparently agreed with Dr. Arangelovich. We do not find her expert opinion to
be improbable, unsatisfactory, or inconclusive. See Evans , 209 Ill. 2d at 209. Viewing the
evidence in the light most favorable to the State, we hold that the evidence sufficiently supported
the jury’s finding that defendant’s actions proximately caused M.R.’s death.

¶ 37
¶ 38

B. State of Mind
Defendant argues that his videotaped police interview clearly demonstrates that, even if
his actions proximately caused M.R.’s death, he did not willfully harm her. As defendant points
out, acting “willfully,” to satisfy the requisite mental culpability for child endangerment, is
synonymous with acting “knowingly.” People v. Jordan , 218 Ill. 2d 255, 270 (2006); see also
720 ILCS 5/4-5(b) (West 2012). A person acts “knowingly” when he or she knows that his or her
conduct is practically certain to cause the result. People v. Dorsey , 2016 IL App (4th) 140734,
¶ 34 (citing People v. Psichalinos , 229 Ill. App. 3d 1058, 1067 (1992)). The jury may infer intent
from circumstantial evidence. People v. Williams , 165 Ill. 2d 51, 64 (1995). “The defendant is
presumed to intend the natural and probable consequences of his acts ***.” People v. Terrell ,
132 Ill. 2d 178, 204 (1989).

¶ 39

The trial evidence, viewed in the light most favorable to the State, showed that defendant
knew his aggressive physical act toward his 26-month-old daughter endangered her life or health.
Defendant acted on his own volition when he “roughly” tucked M.R. into her daybed. During his
police interview, he demonstrated tucking M.R. in by using a stuffed teddy bear. After
defendant’s first demonstration, he admitted that he tucked M.R. in harder than in the

10

demonstration because he did not want to hurt the bear. During the second demonstration,
defendant applied noticeably more force.
¶ 40

Defendant became frustrated because M.R. would not lie down for her nap, so he
“roughly” forced her into her daybed. His apology to M.R. after forcing her into her daybed
indicates that he knew he could have injured her. He also knew M.R.’s medical history and
understood she might be more susceptible to injury than other infants. Based on the evidence, the
jury could reasonably conclude that defendant willfully endangered M.R.’s life or health.

¶ 41
¶ 42

II. Jury Instruction
Defendant also argues that the trial court denied him a fair trial by issuing an erroneous
child endangerment jury instruction. Following Illinois Pattern Jury Instructions, Criminal, Nos.
11.29, 11.30 (4th ed. 2000) (hereinafter IPI Criminal 4th), the instruction stated that defendant
should be found guilty of child endangerment if the jury concluded, beyond a reasonable doubt,
that he assumed care or custody over M.R., “willfully caused or permitted” M.R.’s life to be
endangered, and his acts proximately caused M.R.’s death. The trial court did not tender IPI
Criminal 4th No. 5.01B, which states: “Conduct performed knowingly or with knowledge is
performed willfully.” Defense counsel made no objection. Defendant claims that the
instruction’s use of “willfully” rather than “knowingly” in the absence of IPI Criminal 4th No.
5.01B was plain error. Alternatively, defendant argues that counsel provided ineffective
assistance by not objecting to the allegedly erroneous instruction.

¶ 43

Illinois Supreme Court Rule 451(c) (eff. July 1, 2006) states that “substantial defects” in
jury instructions “are not waived by failure to make timely objections thereto if the interests of
justice require.” Rule 451(c) is coextensive with the plain-error clause in Illinois Supreme Court
Rule 615(a). People v. Keene , 169 Ill. 2d 1, 32 (1995); People v. Jackson , 2015 IL App (3d)

11

140300, ¶ 53 n.3. Defendant must demonstrate that the trial court’s instruction constituted “clear
or obvious error” that denied him a fair trial. People v. Downs , 2015 IL 117934, ¶¶ 14-15; see
also Ill. S. Ct. R. 615(a). A fair trial is not necessarily a perfect trial. People v. Herron , 215 Ill. 2d
167, 177 (2005).
¶ 44

For over a decade, Illinois courts have held “willful” conduct to be synonymous with
“knowing” conduct for child endangerment offenses. Jordan , 218 Ill. 2d at 270. Between M.R.’s
date of death (October 26, 2011) and defendant’s trial (November 18, 2013), the General
Assembly codified Jordan by changing the requisite state of mind for child endangerment from
“willful” to “knowing.” Pub. Act 97-1109, §§ 1-5 (eff. Jan. 1, 2013); compare 720 ILCS 5/1221.6 (West 2010), with 720 ILCS 5/12C-5 (West 2012). However, the amendment did not
substantively change the law; “willful” and “knowing” reflect the same state of mind for child
endangerment offenses.

¶ 45

At its core, defendant’s challenge argues that the jury reached inconsistent verdicts. The
crux of defendant’s argument is that the term “willfully” conveyed to the jury a less culpable
state-of-mind requirement than “knowingly.” By finding defendant not guilty of murder, the jury
concluded defendant did not “know” his actions would likely kill M.R. or cause her great bodily
harm. Based on the murder verdict, defendant claims the jury would not have concluded he
“knowingly” endangered M.R.’s life or health.

¶ 46

Defendants may not challenge a jury’s verdict by claiming it is inconsistent. People v.

Jones , 207 Ill. 2d 122, 133-34 (2003). When a jury’s verdict is inconsistent, “it is unclear whose
ox has been gored.” United States v. Powell , 469 U.S. 57, 65 (1984). A court can only speculate
as to the jury’s rationale in reaching its verdict without impermissibly injecting itself into the

12

jury’s deliberations. Id. at 65-66. Further, appellate courts’ authority to independently review the
sufficiency of the prosecution’s evidence guards against unlawful convictions. Id. at 67.
¶ 47

Here, we determined the State’s evidence sufficiently supported defendant’s child
endangerment conviction. We decline defendant’s invitation to speculate as to whether the jury
would have reached a different verdict had the instruction said “knowingly” rather than
“willfully.” In fact, the evidence sufficiently supported a murder conviction; we cannot know
whether the verdict was the result of juror lenity to defendant’s benefit or the jury’s
interpretation of an instruction to his detriment. Regardless, the trial court’s instruction
accurately stated the law—“willfully” and “knowingly” are synonymous in child endangerment
cases. We do not find the trial court’s instruction to be “clear or obvious error.” Downs , 2015 IL
117934, ¶ 15. Nor do we find that counsel provided ineffective assistance by failing to object to a
jury instruction that accurately stated the law.

¶ 48
¶ 49

III. Public Trial
Defendant’s final argument asserts that the trial court violated his right to a public trial
(U.S. Const., amend. VI) when it partially closed the courtroom during voir dire and, while the
State presented its evidence, asked journalism students to find a seat or leave the courtroom.

¶ 50

Prior to bringing over 90 potential jurors into the courtroom, the trial court recognized
that jury selection is a public proceeding but the courtroom could not accommodate the potential
jurors and the large congregation of citizens attending the proceedings. The trial court also
expressed concern that the citizens with “emotions running high” risked contaminating the jury
pool. The court ordered a partial closure during jury selection; two people who supported
defendant and two who did not could remain in the courtroom and sit behind the potential jurors.

13

¶ 51

Later in the trial, prior to the State playing defendant’s videotaped police interview, the
court asked journalism students in attendance to find a seat or leave the courtroom. The record
does not indicate whether any student left the courtroom; we cannot know whether a closure
occurred. We find that without proof a student left the courtroom, the court’s admonishment
cannot support defendant’s public trial claim. We address only the partial closure during

voir dire below.
¶ 52

Defendant admits that neither he nor his counsel objected to the court’s partial closure.
He maintains that his failure to object creates neither a knowing and voluntary waiver of his
public trial right nor a forfeiture of the issue on appeal. Even if he forfeited the issue, defendant
argues the partial closure constituted second-prong plain error, an error so serious that it affected
the fairness of the trial and challenged the integrity of the judicial process. Ill. S. Ct. R. 615(a);

People v. Piatkowski , 225 Ill. 2d 551, 564-65 (2007).
¶ 53

Defendant’s multilayered argument requires some unpeeling before addressing the fruit
of its merit. First, we agree that defendant’s failure to object to the trial court’s partial closure did
not amount to a knowing, intelligent, and voluntary waiver of his right to a public trial. See

Walton v. Briley , 361 F.3d 431, 433-34 (7th Cir. 2004). Had defendant waived his public trial
right, our analysis would be complete. See People v. Bannister , 232 Ill. 2d 52, 71 (2008).
¶ 54

Although defendant did not waive his right to a public trial, he forfeited the issue on
appeal by not contemporaneously objecting or raising the issue in a posttrial motion. People v.

Thompson , 238 Ill. 2d 598, 611-12 (2010). We must determine whether our plain-error doctrine
excepts defendant’s forfeiture. To constitute second-prong plain error, the alleged error must
deprive the defendant of a fundamentally fair trial or undermine the integrity of the judicial
process. Ill. S. Ct. R. 615(a); Piatkowski , 225 Ill. 2d at 564-65.

14

¶ 55

Because public trial rights are “structural,” violations are not subject to harmless error
analysis. Weaver v. Massachusetts , 582 U.S. ___, ___, 137 S. Ct. 1899, 1907-08 (2017); Waller

v. Georgia , 467 U.S. 39, 49 n.9 (1984). However, other than the government’s prohibition from
arguing an error was harmless, “the term ‘structural error’ carries with it no talismanic
significance as a doctrinal matter.” Weaver , 582 U.S. at ___, 137 S. Ct. at 1910.
¶ 56

Despite not being subject to harmless error analysis, public trial violations are subject to a
“triviality standard.” Peterson v. Williams , 85 F.3d 39, 42 (2d Cir. 1996). “A triviality standard,
properly understood,” looks to “whether the actions of the court and the effect that they had on
the conduct of the trial deprived the defendant—whether otherwise innocent or guilty—of the
protections conferred by the Sixth Amendment.” Id. The protections conferred by the public trial
guarantee are (1) to ensure a fair trial, (2) to remind the prosecutor and judge of their
responsibility to the accused and the importance of their functions, (3) to encourage witnesses to
come forward, and (4) to discourage perjury. Waller , 467 U.S. at 46-47. Not every courtroom
closure results in an unfair trial, nor does each closure affect the values underlying the sixth
amendment’s public trial guarantee. See Weaver , 582 U.S. at ___, 137 S. Ct. at 1910.

¶ 57

Defendant argues that automatic reversal is required where a court excludes anyone from
a public proceeding unless (1) the party seeking to close the proceedings advances an overriding
interest that is likely to be prejudiced, (2) the closure is no broader than necessary to protect that
interest, (3) the trial court considers reasonable alternatives to closing the proceeding, and (4) the
trial court makes findings adequate to support the closure. See Waller , 467 U.S. at 48. Further,
defendant cites People v. Evans , 2016 IL App (1st) 142190, ¶ 18, for the proposition that a
courtroom’s limited seating is not an “overriding interest” justifying excluding any citizen from a
proceeding. However, Evans is distinguishable from this case in two ways. First, defense counsel

15

in Evans contemporaneously objected to the closure. Second, the Evans trial court maintained a
standard practice of closing the courtroom during voir dire . Here, counsel did not object to the
partial closure, and the trial court’s partial closure was, according to the record, prompted by
unusually large public attendance in this specific case.
¶ 58

The United States Supreme Court has recently recognized that the problems trial courts
face “in deciding whether some closures are necessary, or even in deciding which members of
the public should be admitted when seats are scarce, are difficult ones.” Weaver , 582 U.S. at ___,
137 S. Ct. at 1909. The Court also recognized that potential errors in making these difficult
decisions can be cured or more thoroughly addressed when a defendant contemporaneously
objects to a courtroom closure. Id. at ___, 137 S. Ct. at 1909-10. In other words, without
contemporaneous objection, the trial court would not likely cure a violation or formally express
its findings on the record.

¶ 59

In this case, the trial court’s partial closure neither deprived defendant of a fair trial nor
undermined the integrity of the judicial process. The partial closure implicated none of the values
underlying defendant’s right to a public trial. Four citizens, not including the jury, remained in
the courtroom during voir dire , and the courtroom was open to all citizens for the remainder of
defendant’s trial. Defendant raises “no suggestion that any juror lied during voir dire ; no
suggestion of misbehavior by the prosecutor, judge, or any other party; and no suggestion that
any of the participants failed to approach their duties with the neutrality and serious purpose that
our system demands.” Id . at ___, 137 S. Ct. at 1913.

¶ 60

We hold that the trial court’s partial closure during voir dire was trivial. Defendant does
not suggest, nor does the record indicate, that the partial closure implicated a single value the
public trial guarantee aims to protect. Defendant’s claim that a courtroom’s available seats can

16

never justify a closure defies reality and would, if accepted, stifle courts’ duty to administer
justice. Absent clear error, defendant is not entitled to automatic reversal based upon a
constitutional claim for which we have little record due to his failure to object: “Due regard
generally for the public nature of the judicial process does not require disregard of the solid
demands of the fair administration of justice in favor of a party who, at the appropriate time and
acting under advice of counsel, saw no disregard of a right, but raises an abstract claim only as
an afterthought on appeal.” Levine v. United States , 362 U.S. 610, 619-20 (1960). We see no
clear error in this case.
¶ 61
¶ 62

CONCLUSION
For the foregoing reasons, we affirm the judgment of the circuit court of Kankakee
County.

¶ 63

Affirmed.

¶ 64

JUSTICE McDADE, dissenting:

¶ 65

Defendant argues, inter alia , that his right to a public trial was violated when the trial
court excluded all but four members of the public from the voir dire proceeding and, later,
ordered journalism students to leave the courtroom during the trial. I agree with the majority that
we cannot determine if a closure occurred when the court ordered the journalism students to
leave the courtroom because the record is unclear on whether they actually left. However, I
disagree with the majority’s finding that defendant’s right to a public trial was not violated when
the trial court excluded members of the public from voir dire .

¶ 66

The facts show that the trial court decided—without a request from either party or the
consent of the defendant—to close the entire voir dire proceedings to members of the public
except two individuals from defendant’s family and two individuals from the victim’s family.

17

The court reasoned that, because of its preference to seat the entire jury venire in the courtroom
at once, there were only enough remaining seats to accommodate four members of the public.
¶ 67

Our society has a strong interest in public trials. Gannett Co. v. DePasquale , 443 U.S.
368, 383 (1979). In a public trial, “ ‘the public may see [a defendant] is fairly dealt with and not
unjustly condemned, and *** the presence of interested spectators may keep his triers keenly
alive to a sense of their responsibilities and to the importance of their functions.’ ” (Internal
quotation marks omitted.) Waller v. Georgia , 467 U.S. 39, 46 (1984) (quoting In re Oliver , 333
U.S. 257, 270 n.25 (1948)). A public trial also “encourages witnesses to come forward and
discourages perjury.” Id. The sixth amendment’s right to a public trial was created for the benefit
of the defendant, and a court cannot deprive defendant of this right without his consent. Id. at 46;

People v. Harris , 302 Ill. 590, 592-93 (1922). The right to a public trial extends to voir dire
proceedings. Presley v. Georgia , 558 U.S. 209, 212-13 (2010).
¶ 68

“While all trials are presumed to be open, the right is not absolute.” People v. Burman ,
2013 IL App (2d) 110807, ¶ 51. To justify closing a trial proceeding, we examine whether
(1) there exists an “overriding interest that is likely to be prejudiced,” (2) the closure is no
broader than necessary to protect that interest, (3) the trial court considered “reasonable
alternatives” to closing the proceeding, and (4) the trial court made adequate findings to support
the closure. (Internal quotation marks omitted.) People v. Evans , 2016 IL App (1st) 142190, ¶ 10
(quoting People v. Willis , 274 Ill. App. 3d 551, 553 (1995), quoting Waller , 467 U.S. at 48). The
overriding interest required by Waller also applies to partial closures. People v. Cooper , 365 Ill.
App. 3d 278, 282 (2006) (citing People v. Taylor , 244 Ill. App. 3d 460, 464 (1993)). The
majority touches on Waller ’s overriding interest and other factors in addressing defendant’s

18

argument, but I believe additional analysis is necessary in determining whether the closure was
justified.
¶ 69

Considering the Waller factors, I would find that the closure was not justified for three
reasons. First, the reason the court gave for deciding to exclude nearly all members of the public
from voir dire was that it wanted to seat the entire venire in the courtroom and “[t]here’s only so
many seats.” This is not an overriding interest. Having the entire venire in the courtroom at the
same time is a function of the court’s preference and convenience—factors that surely do not
override a defendant’s constitutional right to a fair and public trial. Moreover, the issue of the
number of seats in a courtroom is “solely a matter of logistics and convenience for courtroom
personnel” and “has no positive effect on the fairness of the trial.” Evans , 2016 IL App (1st)
142190, ¶ 12. Also, although defendant challenges the trial court’s closure solely as violative of
his rights under the sixth amendment, the excluded spectators, who had chosen to attend and to
observe the proceedings, also had a constitutional interest in an open trial. The Supreme Court
has held that the right to a public trial “extends beyond the accused and can be invoked under the
First Amendment.” Presley , 558 U.S. at 212 (citing Press-Enterprise Co. v. Superior Court of

California , 464 U.S. 501 (1984)). It is also well established that the “Sixth Amendment right of
the accused is no less protective of a public trial than the implicit First Amendment right of the
press and public.” Waller , 467 U.S. at 46.
¶ 70

Second, the court did not articulate adequate findings to support the closure. Indeed, it
articulated no findings; it removed the public because it wanted to do so. The court cannot
arbitrarily burden a defendant’s right to a fair trial or the implicit first amendment right of the
public and press to an open trial. It must identify an interest that overrides those rights and
articulate “ ‘findings specific enough that a reviewing court can determine whether the closure

19

order was properly entered.’ ” Presley , 558 U.S. at 215 (quoting Press-Enterprise Co. , 464 U.S.
at 510). Here, the court’s stated reason does not even pretend to identify an “overriding” need
served only by having the entire venire present in the courtroom at the same time and moving the
public out because of the resulting lack of seats. Nor does the court indicate how such an interest
would be prejudiced by, for example, working with panels, or other smaller configurations, of
jurors. It is impossible to ascertain from the court’s simple statement what overriding interest
was at stake and how that interest would be prejudiced without the nearly total exclusion of the
public from the jury selection proceedings.
¶ 71

Third, the court failed to consider any reasonable alternative to its partial closure. “Trial
courts are obligated to take every reasonable measure to accommodate public attendance at
criminal trials.” Id. Here, if a larger courtroom that could seat the venire and the public was
unavailable, the court could have called the jurors into the room in smaller groups or asked
individuals to stand until the size of the venire was reduced and seating became available. See

Evans , 2016 IL App (1st) 142190, ¶ 15. If the courthouse has no courtrooms large enough to
accommodate the public, the press, and the entire venire, perhaps the county should look into
enhanced audio or other technology.
¶ 72

The majority finds Evans inapplicable because the defense counsel in Evans objected to
the closure whereas no objection was made in this case.1 Evans , 2016 IL App (1st) 142190, ¶ 3. I
do not see how this distinction is relevant. A failure to object does not preclude this court from
reviewing defendant’s constitutional claim for plain error. See People v. Jones , 2014 IL App

majority also states that Evans is inapplicable to this case because “the Evans trial court
maintained a standard practice of closing the courtroom during voir dire .” Supra ¶ 57. My reading of
Evans does not reveal any basis for this statement. In Evans , the reviewing court speaks of one instance in
which the defendant’s step-grandmother was asked to leave the courtroom before voir dire proceedings.
Evans , 2016 IL App (1st) 142190, ¶¶ 3-4. There is no reference to the trial court’s standard practice of
closing the courtroom in Evans .
1The

20

(1st) 120927, ¶ 40 (although defendant failed to object to the closure, the reviewing court
analyzed defendant’s constitutional challenge for plain error). Furthermore, the trial court has a
responsibility to ensure defendant receives a fair trial, and defendant’s failure to object should
not relieve it of this responsibility. See Evans , 2016 IL App (1st) 142190, ¶ 14 (“Given the
seriousness of the potential harm, each trial judge must be alert and proactive in managing his or
her courtroom to prevent violations of this core constitutional right, regardless of whether
attorneys assist in the process.”).
¶ 73

The majority also finds that the partial closure was trivial because defendant did not
provide evidence that he was denied the constitutional protections listed above. The majority
further states that the record is devoid of evidence that the partial closure violated defendant’s
constitutional protections. Illinois courts have found that a temporary closure was “trivial” when
the closure was brief or minimal. See Jones , 2014 IL App (1st) 120927, ¶ 45 (finding that the
trial court’s brief in camera questioning of two potential jurors was trivial); People v. Webb , 267
Ill. App. 3d 954, 959 (1994) (holding that the closure was trivial because spectator missed “a few
minutes of discussion” at trial); see also Peterson v. Williams , 85 F.3d 39, 44 (2d Cir. 1996)
(ruling that defendant’s sixth amendment rights were not violated because the closure was
“extremely short,” the spectators were given a follow-up summation, and the closure was
inadvertent). However, closure is not trivial when it occurs for the entirety of the voir dire
proceedings. See Evans , 2016 IL App (1st) 142190, ¶ 17 (“What occurred here is in no way a
‘trivial’ closure. Ms. Peterson missed the entirety of jury selection, including questioning of
potential jurors and a number of peremptory challenges.”).

¶ 74

Here, the trial court excluded all spectators except four individuals prior to the voir dire
proceedings, and the excluded spectators were denied an opportunity to view any portion of the

21

proceedings. This closure was not trivial or de minimis ; it was a nearly complete denial of
defendant’s right to have the public present for the voir dire of prospective jurors. Id. Therefore,
I would hold that an error occurred, enabling plain-error review because the trial court violated
defendant’s right to a public trial.
¶ 75

Defendant asserts that the trial court’s violation constituted second-prong plain error. The
majority applies the Weaver Court’s ruling to defendant’s challenge under the second prong of
plain-error review and finds that defendant did not show that the partial closure affected the
fairness of his trial and the integrity of the judicial process. See Weaver v. Massachusetts , 582
U.S. ___, ___, 137 S. Ct. 1899, 1911 (2017). I disagree with the majority’s decision. The Court
in Weaver determined that, although a violation of the right to a public trial is structural error,
the automatic reversal requirement does not extend to the Strickland test because the violation
does not always lead to a fundamentally unfair trial as is necessary to meet the prejudice prong.

Id. at ___, 137 S. Ct. at 1911 (“when a defendant raises a public-trial violation via an ineffectiveassistance-of-counsel claim, Strickland prejudice is not shown automatically”).
¶ 76

The Strickland test is not at issue in this case. It is well-established that a violation of a
defendant’s right to a public trial is structural error. The United States Supreme Court established
that a violation of a public trial is structural because of the “ ‘difficulty of assessing the effect of
the error.’ ” Id. at ___, 137 S. Ct. at 1910 (quoting United States v. Gonzalez-Lopez , 548 U.S.
140, 149 (2006)). The Court further found that the violation is structural error because it protects
the interest of the public at large, the press, and the defendant. Id. at ___, 137 S. Ct. at 1910
(citing Press-Enterprise Co. v. Superior Court of California , 464 U.S. 501, 508-10 (1984)). The
Illinois Supreme Court also recognized that a violation of the right to a public trial is structural

22

error (Thompson , 238 Ill. 2d at 609) and that automatic reversal is required when an error is
deemed “structural” (People Glasper , 234 Ill. 2d 173, 197 (2006)).
¶ 77

Our supreme court “equated the second prong of plain-error review with structural error.”

Thompson , 238 Ill. 2d at 613. The court further classified structural error as “a systemic error
which serves to ‘erode the integrity of the judicial process and undermine the fairness of the
defendant’s trial.’ ” (Internal quotation marks omitted.) Id. at 614 (quoting Glasper , 234 Ill. 2d at
197-98). In other words, a violation of the right to a public trial, in essence, affects the fairness of
the defendant’s trial and undermines the integrity of the judicial process as required under the
second prong of plain-error review. As stated previously, I would find that the trial court violated
defendant’s right to a public trial and that this violation is structural error. Based on our supreme
court’s ruling, I would find that defendant met the second prong of plain-error review. Because
automatic reversal is required when an error is deemed structural and because the evidence,
reviewed in the light most favorable to the State, was sufficient to find defendant guilty beyond a
reasonable doubt, I would reverse defendant’s conviction and remand for a new trial. People v.

Willis , 274 Ill. App. 3d 551, 554 (1995) (“The sixth amendment protects all portions of the trial,
including voir dire , and the appropriate remedy for improper closure is a new trial.”).

23

